<html>
<title> - A REVIEW OF THE NATIONAL AERONAUTICS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                 A REVIEW OF THE NATIONAL AERONAUTICS
                 
                    AND SPACE ADMINISTRATION BUDGET
                    
                          FOR FISCAL YEAR 2015
=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
              
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 27, 2014

                               __________

                           Serial No. 113-70

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
       
                                    ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

88-140 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, TEXAS                 DONNA F. EDWARDS, Maryland, RMM
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. MCCAUL, Texas             JOSEPH P. KENNEDY III, 
MO BROOKS, ALABAMA                       Massachusetts
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
JIM BRIDENSTINE, Oklahoma            FREDERICA WILSON, Florida
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas

                            C O N T E N T S

                             March 27, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    20

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    22
    Written Statement............................................    23

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    25
    Written Statement............................................    26

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    27
    Written Statement............................................    28

                               Witnesses:

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    30
    Written Statement............................................    33

Discussion.......................................................    44

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration (NASA)....................    74

            Appendix II: Additional Material for the Record

Letter from The Planetary Society submitted for the record by 
  Representative Steven M. Palazzo, Chairman, Subcommittee on 
  Space, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   158

Additional responses submitted by The Hon. Charles F. Bolden, Jr.   164

 
                  A REVIEW OF THE NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION BUDGET
                    
                          FOR FISCAL YEAR 2015

                              ----------                              


                        Thursday, March 27, 2014

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Steven Palazzo 

[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Palazzo. The Subcommittee on Space will come to 
order.
    Good morning. Welcome to today's hearing titled ``A Review 
of the National Aeronautics and Space Administration Budget for 
Fiscal Year 2015.''
    In front of you are packets containing the written 
testimony, biography and Truth in Testimony disclosure for 
today's witness. I recognize myself for five minutes for an 
opening statement.
    Mr. Administrator, I will begin my statement this morning 
with a sincere thank you for your leadership and the hard work 
of all the men and women at NASA. While I do not always agree 
with the Administration's decisions, I appreciate the good 
people at NASA and their service to the country.
    The President's budget request this year for NASA is $17.4 
billion, a decrease of $186 million relative to the 
Consolidated Appropriations Act, which was signed by the 
President only two months ago. I am most concerned by the 
Administration's insistence on reordering the funding 
priorities of the agency. The Consolidated Appropriations Act 
provided clear priorities to the Administration. In fact, 
Administrator Bolden heaped praise on the appropriation for 
NASA the day it passed, and yet we see again that the President 
has chosen to realign those priorities he agreed to in both the 
NASA Authorization Act of 2010 and the Consolidated 
Appropriations Act.
    Again this year, the Administration is proposing funding 
for the Asteroid Redirect Mission, or ARM. There is still no 
budget profile, program office or schedule for this mission, so 
we are in the same position we were a year ago when it was 
first announced. The Consolidated Appropriations Act directed 
NASA to produce more information on this mission before further 
investments will be considered. I hope to hear from the 
Administrator today that these plans are under development and 
that the agency is also taking ongoing concerns from many in 
the scientific community and its own advisory groups into 
consideration.
    At the same time the Administration has requested these 
additional funds for the ARM, cuts have been made to top agency 
and Congressional priorities. For the fourth year in a row, the 
Administration has requested a reduction to the Orion crew 
capsule and the Space Launch System. This year's budget request 
cuts these programs by $330 million. As Administrator Bolden 
stated the day the appropriations bill passed, the bill keeps 
NASA's deep space exploration program on track. Surely if $1.6 
billion would only keep the SLS and Orion on track, a $219 
million cut could derail those efforts. This is simply 
unacceptable. These critical assets are the essential 
components of our future deep space human exploration efforts. 
The Administration cannot in the same breath claim to support 
space exploration while continuing to divert agency budgets in 
a manner that undermines that mission.
    The agency must be mission-focused and budget-vigilant, and 
that is why I will continue to work for appropriate funding 
levels for these systems. Just as in years past, the 
Administration is requesting large increases in the Commercial 
Crew program without any data to back up their request.
    One of my top priorities as Chairman of this Subcommittee, 
especially in times of international uncertainty, is ensuring 
we restore the capability to launch American astronauts on 
American rockets from American soil as soon as possible. Our 
commercial partners are the key to making that possible as they 
relieve us from relying on the Russians for access to the 
International Space Station.
    But in times of budget constraint, we must be sure we are 
doing the best we can with what we have. This proposal should 
be accompanied by a strategic acquisition plan and other 
planning documents in order to justify the Administration's 
budget request increase of $152 million.
    Additionally, this year's budget request also includes the 
cancellation of the SOFIA program. American taxpayers invested 
$1.2 billion on this one-of-a-kind asset, and the 
Administration is proposing cancellation just as it gets off 
the ground.
    Administrator Bolden, Dr. Holdren said you might be more 
helpful in answering questions we have about the proposed 
cancellation of SOFIA. I would hate to see us cancel yet 
another international partnership in the same manner as we did 
with the ExoMars project. I am moved to ask, how can the 
international community rely on this Administration to 
collaborate on anything without fear of cancellation?
    There is no doubt that our Nation's space program is facing 
many challenges. That is all the more reason the Administration 
must deliver budgets and goals that support a serious 
commitment to human exploration and stop using the Science 
Mission Directorate as a partisan football. The scientists and 
engineers who work every day to maintain U.S. leadership in 
space are counting on you. The American public is counting on 
the President and they are counting on each of us here in this 
room to have an honest conversation about where we are at this 
time in our Nation's space program and to make tough choices. 
It means setting politics aside and investing strategically in 
our future.
    I am ready to work together to ensure the priorities from 
previous legislation that the President signed will be honored. 
The future of our space program depends on it.
    [The prepared statement of Mr. Palazzo follows:]

              Prepared Statement of Subcommittee on Space
                       Chairman Steven M. Palazzo

    I recognize myself for five minutes for an opening statement. Mr. 
Administrator, I will begin my statement this morning with a sincere 
thank you for your leadership and the hard work of all the men and 
women at NASA. While I do not always agree with the Administration's 
decisions, I appreciate the good people at NASA and their service to 
the country.
    The President's budget request this year for NASA is $17.4 billion, 
a decrease of $185.9 million relative to the Consolidated 
Appropriations Act, which was signed by the president only two months 
ago. I am most concerned by the Administration's insistence on 
reordering the funding priorities of the agency. The Consolidated 
Appropriations Act provided clear priorities to the Administration; in 
fact, Administrator Bolden heaped praise on the appropriation for NASA 
the day it passed. And yet we see again that the President has chosen 
to realign those priorities he agreed to in both the NASA Authorization 
Act of 2010 and the Consolidated Appropriations Act.
    Again this year, the Administration is proposing funding for the 
Asteroid Redirect Mission or ARM. There is still no budget profile, 
program office, or schedule for this mission, so we are in the same 
position we were a year ago when it was first announced.
    The Consolidated Appropriations Act directed NASA to produce more 
information on this mission before further investments will be 
considered. I hope to hear from the Administrator today that these 
plans are under development, and that the agency is also taking ongoing 
concerns--from many in the scientific community and its own advisory 
groups--into consideration.
    At the same time the Administration has requested these additional 
funds for the ARM, cuts have been made to top Agency and Congressional 
priorities. For the fourth year in a row, the Administration has 
requested a reduction to the Orion crew capsule and the Space Launch 
System.
    This year's budget request cuts these programs by $330 million. As 
Administrator Bolden stated the day the Appropriations bill passed, 
``The bill keeps NASA's deep space exploration program (the Space 
Launch System and Orion) on track.'' Surely if $1.6 billion would only 
keep the SLS and Orion on track, a $219 million cut could derail those 
efforts.
    This is simply unacceptable. These critical assets are the 
essential components of our future deep space human exploration 
efforts. The Administration cannot in the same breath claim to support 
space exploration while continuing to divert agency budgets in a manner 
that undermines that mission. The agency must be mission-focused and 
budget vigilant, and that is why I will continue to work for 
appropriate funding levels for these systems.
    Just as in years past, the Administration is requesting large 
increases in the Commercial Crew Program without any data to back up 
the request. One of my top priorities as Chairman of this Subcommittee, 
especially in times of international uncertainty, is ensuring we 
restore the capability to launch American astronauts on American 
rockets from American soil as soon as possible. Our commercial partners 
are the key to making that possible as they relieve us from relying on 
the Russians for access to the International Space Station.
    But, in times of budget constraint, we must be sure we are doing 
the best we can with what we have. This proposal should be accompanied 
by a strategic acquisition plan and other planning documents in order 
to justify the Administration's budget request increase of $152.3 
million.
    Additionally, this year's budget request also includes the 
cancellation of the SOFIA program. American taxpayers invested $1.2 
billion on this one of a kind asset, and the Administration is 
proposing cancellation just as it gets off the ground. Administrator 
Bolden, he said you might be more helpful in answering questions we 
have about the proposed cancellation of SOFIA.
    I would hate to see us cancel yet another international 
partnership, in the same manner as we did with the ExoMars project. I 
am moved to ask, how can the international community rely on this 
Administration to collaborate on anything without fear of cancellation?
    There is no doubt that our nation's space program is facing many 
challenges. That is all the more reason the Administration must deliver 
budgets and goals that support a serious commitment to human 
exploration, and stop using the Science Mission Directorate as a 
partisan football. The scientists and engineers who work every day to 
maintain U.S. leadership in space are counting on you, Administrator 
Bolden.
    The American public is counting on the President. They are counting 
on each of us here in this room to have honest conversation about where 
we are at this time in our nation's space program, and to make tough 
choices. It means setting politics aside and investing strategically in 
our future. I am ready to work together to ensure the priorities from 
previous legislation - that the President signed--will be honored. The 
future of our space program depends on it.
    Chairman Palazzo. I now recognize the Ranking Member, the 
gentlewoman from Maryland, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you also to General Bolden for being here today with us.
    I appreciate holding a hearing to review the National 
Aeronautics and Space Administration's budget for Fiscal Year 
2015, and I want to welcome of course Administrator Bolden. I 
also congratulate NASA and all of its contractor private sector 
workforce on a number of successful launches and milestones 
that they have achieved over this past year.
    I am and always have been and will be a passionate person 
about NASA and our space program and the people who work in it. 
Our program, our space program has been a symbol of our 
greatness as a Nation, a means for peaceful collaboration with 
other Nations, a bedrock of our capacity for innovation, and a 
powerful source of inspiration for student and professional 
engagement in science and technology. NASA will continue to be 
these things and more, but only if we provide it with the 
stability and resources needed to meet its multi-mission 
responsibilities in aeronautics, space science, Earth Science, 
human spaceflight, and human exploration.
    That is why I am pleased that the $18.3 billion proposed 
for NASA for Fiscal Year 2015, which incorporates the funding 
being requested as part of the Opportunity, Growth, and 
Security Initiative, is close to the level specified for Fiscal 
Year 2015 in the NASA Authorization Act, the bill that I and 
full Committee Ranking Member Johnson introduced last July. I 
support the President's Growth Initiative to make further 
investments in research and development that will help grow the 
Nation's economy and create jobs.
    That said, I recognize that there will be much discussion 
about this initiative, so we need to understand the impacts to 
NASA's programs if the agency is only provided the base-level 
request of $17.46 billion. For example, I have questions about 
the reduced funding requested for the Space Launch System and 
Orion crew vehicle, and the potential impact it will have on 
the programs' abilities to achieve critical test flights in 
2017 and 2021.
    I also want to understand the implications of the proposed 
shutdown of the Stratospheric Observatory for Infrared 
Astronomy--SOFIA--good thing we call it SOFIA--a project that 
was undertaken in partnership with Germany, and I want to hear 
about whether there are options that should be explored and 
that were explored that might preserve our investment in this 
facility. I also want to learn more about the proposal to fund 
studies on a potential Wide-Field Infrared Survey Telescope--
WFIRST--mission, and the science that such a mission might 
enable.
    I look forward to hearing from Administrator Bolden about 
increases being requested for the Commercial Crew program. We 
need to know what we will be getting for that money, and how 
NASA will ensure that both astronaut safety and the interests 
of the taxpayer will be protected.
    In addition, I hope to learn today whether the base-level 
request for the International Space Station, and particularly 
that for research on the ISS, will be sufficient to ensure that 
a robust research pipeline is in place to support the proposed 
extension of ISS operations and utilization through 2024, and I 
have questions about the proposed changes to NASA's education 
programs. We have raised those questions here in this Committee 
before. Those programs today played a critical role in 
inspiring so many of our Nation's youth to seek science and 
technical degrees and careers.
    Mr. Chairman, I also want to take this opportunity to 
clarify for the record, that while I paid the NASA 
Administrator a compliment for his passionate and lucid 
explanation of the Asteroid Redirect Mission to a group of 
students recently--that is how I spend my time watching 
television--I continue to have questions about this potential 
mission and how it would contribute, relative to other 
potential missions, to enable the goal of sending humans to the 
surface of Mars.
    And finally, Mr. Chairman, I am hopeful that today's 
discussion will help inform our continuing work on 
reauthorizing NASA. I want to commend you and your staff, Mr. 
Chairman, for working with our team because I think that we can 
get from here together on the same page as Republicans and 
Democrats in support of our space mission. I know that we both 
share the goal of achieving a strong, bipartisan NASA 
Authorization bill to provide the stability and resources NASA 
needs if it is to accomplish the inspiring missions we have 
asked it to carry out.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                Ranking Minority Member Donna F. Edwards

    Thank you, Mr. Chairman, for holding today's hearing on ``A Review 
of the National Aeronautics and Space Administration Budget for Fiscal 
Year 2015.'' I'd like to welcome back Administrator Bolden and also to 
congratulate NASA and its contractor workforce on a number of 
successful launches and milestones achieved over the past year.
    I am and always have been passionate about NASA and our space 
program. Our space program has been a symbol of our greatness as a 
nation, a means for peaceful collaboration with other nations, a 
bedrock of our capacity for innovation, and a powerful source of 
inspiration for student and professional engagement in science and 
technology.
    NASA will continue to be these things and more, but only if we 
provide it with the stability and resources needed to meet its 
multimission responsibilities in aeronautics, space science, Earth 
science, human spaceflight, and human exploration. That is why I'm 
pleased that the $18.3 billion dollars proposed for NASA for Fiscal 
Year 2015, which incorporates the funding being requested as part of 
the Opportunity, Growth, and Security Initiative, is close to the level 
specified for Fiscal Year 2015 in the NASA Authorization Act bill that 
I and full Committee Ranking Member Johnson introduced last July. I 
support the President's Growth Initiative to make further investments 
in research and development that will help grow the nation's economy 
and create jobs.
    That said, I recognize that there will be much discussion about 
this Initiative, so we need to understand the impacts to NASA's 
programs if the agency is only provided the base level request of 
$17.46 billion. For example, I have questions about the reduced funding 
requested for the Space Launch System and Orion crew vehicle, and the 
potential impact it will have on the programs' ability to achieve 
critical test flights in 2017 and 2021.
    I also want to understand the implications of the proposed shutdown 
of the Stratospheric Observatory for Infrared Astronomy (SOFIA)--a 
project that was undertaken in partnership with Germany--and hear about 
whether there are options that should be explored that might preserve 
our investment in this facility. I also want to learn more about the 
proposal to fund studies on a potential Wide-Field Infrared Survey 
Telescope (WFIRST) mission, and the science that such a mission might 
enable.
    I look forward to hearing from the Administrator about increases 
being requested for the commercial crew program. We need to know what 
we will be getting for that money, and how NASA will ensure that both 
astronaut safety and the interests of the taxpayer will be protected. 
In addition, I hope to learn today whether the base level request for 
the ISS, and particularly that for research on the ISS, will be 
sufficient to ensure that a robust research pipeline is in place to 
support the proposed extension of ISS operations and utilization 
through 2024. And I have questions about the proposed changes to NASA's 
education programs, which have played a critical role in inspiring so 
many of our nation's youth to seek science and technical degrees and 
careers.
    Mr. Chairman, I also want to take this opportunity to clarify, for 
the record, that while I paid the NASA Administrator a compliment on 
his passionate and lucid explanation of the Asteroid Redirect Mission 
to a group of students recently, I continue to have questions about 
this potential mission and how it would contribute, relative to other 
potential missions, to enabling the goal of sending humans to the 
surface of Mars.
    Finally, Mr. Chairman, I am hopeful that today's discussion will 
help inform our continuing work on reauthorizing NASA. I know that we 
both share the goal of achieving a strong, bipartisan NASA 
Authorization bill to provide the stability and resources NASA needs if 
it is to accomplish the inspiring missions we have asked it to carry 
out.
    Thank you, and I yield back the balance of my time.
    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
the Chairman of the full Committee, the gentleman from Texas, 
Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman, and we appreciate 
Administrator Bolden appearing before us again today to present 
the President's budget request for NASA. While we may disagree 
on a few topics, I think we share the same desire to ensure 
that NASA remains the world's preeminent space agency so that 
our Nation continues to lead the world in space exploration and 
discovery, and that is why I am concerned with the President's 
Fiscal Year 2015 budget request. Just three months ago, 
Congress and the President reached an agreement on NASA's 
budget. Now, just a few weeks later, the President recommends a 
$185 million cut to NASA. It also again seeks to fund an 
asteroid redirect or retrieval mission despite what one article 
this week described as ``scant support in Congress and 
similarly muted interest in the science community.''
    The Administration continues to push this mission on NASA 
without any connection to a larger exploration roadmap and 
absent support from the scientific community or NASA's own 
advisory bodies. It is a mission without a realistic budget, 
without a destination and without a certain launch date.
    The committee has heard a number of concerns about the 
mission as well as many promising alternatives. For instance, 
the Committee recently held a hearing on the potential for a 
flyby mission to Venus and Mars in 2021. While the mission is 
not without challenges, it is intriguing and would catch the 
public's imagination.
    Unfortunately, the budget underfunds the Space Launch 
System and Orion programs as well as the Planetary Science 
Division. The White House's approach has been to raid NASA's 
budget to fund the Administration's environmental agenda. There 
are 13 other agencies that are involved in climate change 
research yet only one conducts space exploration. In the last 
seven years, the Earth Science Division funding has increased 
over 63 percent. NASA needs to remember its priorities and the 
priority is space exploration.
    I am glad to see that NASA is working to complete the James 
Webb Space Telescope and to initiate the production of the 
Wide-Field Infrared Space Telescope as well. And NASA finally 
has included a budget line for a Europa mission, even though it 
is just for one year and too little. Over the last two years, 
Congress has funded a Europa mission at $75 million and $80 
million, so the one-year funding of $15 million is as 
disappointing as the potential life that may exist under the 
ice of Jupiter's moon is fascinating.
    Our leadership in space has slipped. The Administration, I 
hope, will step back, look at the agency as a whole and work to 
put it on a long-term path to achieve worthy and inspirational 
goals on behalf of our Nation.
    Space exploration inspires American students and excites 
scientists. If we want to continue to be a world leader and 
take giant leaps for mankind, NASA must ensure its budget 
reflects the importance of space exploration.
    Thank you, Mr. Chairman. I will yield back.
    
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Full Committee Chairman
                             Lamar S. Smith

    Thank you, Mr. Chairman. And we appreciate Administrator Bolden 
appearing before us once again to present the President's budget 
request for NASA.
    While we may disagree on a few topics, I think we share the same 
desire to ensure that NASA remains the world's preeminent space agency 
so that our nation continues to lead the world in space exploration and 
discovery. That is why I am concerned with the President's Fiscal Year 
2015 budget request. Just three months ago, Congress and the President 
reached an agreement on NASA's budget.
    Now, just a few weeks later, the President recommends a $185 
million cut to NASA. It also again seeks to fund an Asteroid Redirect 
or Retrieval Mission despite what one article this week described as `` 
. . . scant support in Congress and similarly muted interest in the 
science community . . . ''
    The Administration continues to push this mission on NASA without 
any connection to a larger exploration roadmap and absent support from 
the scientific community or NASA's own advisory bodies. It is a mission 
without a realistic budget, without a destination, and without a 
certain launch date.
    The Committee has heard a number of concerns about the mission, as 
well as many promising alternatives. For instance, the Committee 
recently held a hearing on the potential for a flyby mission to Mars 
and Venus in 2021. While the mission is not without challenges, it is 
intriguing and would catch the public's imagination.
    Unfortunately, the budget underfunds the Space Launch System and 
Orion programs, as well as the Planetary Science Division. The White 
House's approach has been to raid NASA's budget to fund the 
Administration's environmental agenda. There are 13 other agencies that 
are involved in climate change research, yet only one conducts space 
exploration. In the last seven years, the Earth Science Division 
funding has increased over 63 percent.
    NASA needs to remember its priorities--and that priority is space 
exploration.
    I'm glad to see that NASA is working to complete the James Webb 
Space Telescope and to initiate the production of the Wide Field 
Infrared Space Telescope as well. And NASA finally has included a 
budget line for a Europa mission, even if it is just for one year and 
too little.
    Over the last two years, Congress has funded a Europa mission at 
$75 million and $80 million. So the one year funding of $15 million is 
as disappointing as the potential life that may exist under the ice of 
Jupiter's moon is fascinating.
    Our leadership in space has slipped. The Administration should step 
back, look at the Agency as a whole, and work to put it on the long 
term path to achieve worthy and inspirational goals on behalf of our 
nation.
    Space exploration inspires American students and excites 
scientists. If we want to continue to be a world leader and take giant 
leaps for mankind, NASA must ensure its budget reflects the importance 
of space exploration.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Palazzo. Thank you, Mr. Chairman. I now recognize 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much.
    Good morning, and welcome to this morning's hearing, 
Administrator Bolden. I look forward to your testimony today. 
You have a very challenging job with a great many 
responsibilities, and I know that all of us appreciate the 
service you render to our nation.
    As the Chairman has indicated, we are here today to review 
NASA's Fiscal Year 2015 budget request. At the outset, I want 
to say that I am heartened that the President has been willing 
to commit more than $18.3 billion to NASA for Fiscal Year 2015, 
a four percent increase over the Fiscal Year 2014 
appropriations. Achieving that level, however, will require 
Congress to work with the President to achieve targeted 
spending cuts and increased revenue to provide necessary 
offsets and stay within the budget agreement. I hope that my 
friends across the aisle will agree with me that NASA and its 
programs are worth a little effort on Congress's part to 
identify the needed funds. The ball is now in our court.
    That said, I want to use my remaining time to raise a few 
issues that I hope will be discussed today. First, I am 
troubled by the cuts being proposed to NASA's education 
activities. These cuts do not appear to be just the result of 
achieving increased efficiencies through interagency 
collaborations. They are cuts, pure and simple, which I 
consider to be the wrong message to be sending as we try to 
engage the next generation in STEM pursuits.
    Second, I have to confess that I am a bit weary of the 
annual cycle of the Administration proposing reductions in the 
funding for the Space Launch System and the Orion exploration 
vehicles. Both of those vehicles are under development and 
approaching initial testing milestones. This is the point in a 
healthy vehicle development program that funding should be 
increasing, not decreasing. I expect that this is an area that 
Congress will once again have to address.
    And third, I am a bit puzzled by the cuts proposed for 
NASA's science programs. Those programs provide not only 
exceptional science, but also important outreach opportunities 
and the ability to engage our international partners in 
meaningful collaborations. We are going to need to look closely 
at what is being proposed in this budget.
    Finally, I want to know more about the proposed increases 
to NASA's Commercial Crew program. Those increases are quite 
significant, especially in the context of NASA's constrained 
budgetary environment. While I certainly want to reduce our 
dependence on Russia for crew transportation to and from the 
International Space Station, I am not prepared to provide a 
blank check to do so.
    As you know, Representative Edwards and I expressed deep 
concern last fall over NASA's intention to prioritize prices 
over safety in its evaluation of vendor proposals leading to 
upcoming contract awards for development and certification of 
commercial crew systems. Unfortunately, NASA chose not to make 
any changes in its final solicitation before it went out. The 
agency's action is directly counter to the recommendations of 
the Columbia Accident Investigation Board, and despite 
Administrator Bolden's undisputed personal commitment to 
safety, I think that is a very worrisome step for the agency to 
take. Moreover, NASA is waiving the requirement for certified 
cost or pricing data as part of that same contract, data that 
has traditionally been required to protect both the agency and 
the taxpayer.
    Administrator Bolden, NASA still has significant time to 
correct both of these deficiencies before bidders submit their 
final updates to their proposals later this spring. I urge you 
to do so, as I would find it difficult to support the funding 
you are requesting for commercial crew in the absence of such 
safeguards.
    Well, we have a lot to talk about today, and I again want 
to welcome you to today's hearing, Administrator Bolden, and I 
yield back the balance of my time. Thank you.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Good morning, and welcome to this morning's hearing, Administrator 
Bolden. I look forward to your testimony. You have a very challenging 
job with a great many responsibilities, and I know that all of us 
appreciate the service you render to our nation.
    As the Chairman has indicated, we are here today to review NASA's 
Fiscal Year 2015 budget request. At the outset, I want to say that I am 
heartened that the President has been willing to commit more than $18.3 
billion to NASA for FY 2015--a 4 % increase over the FY 2014 
appropriation. Achieving that level, however, will require Congress to 
work with the President to achieve targeted spending cuts and increased 
revenue to provide the necessary offsets and stay within the budget 
agreement. I hope that my friends across the aisle will agree with me 
that NASA and its programs are worth a little effort on Congress's part 
to identify the needed funds.
    The ball is now in our court to do so.That said, I want to use my 
remaining time to raise a few issues that I hope will be discussed 
today.
    First, I am troubled by the cuts being proposed to NASA's education 
activities. These cuts do not appear to be just the result of achieving 
increased efficiencies through interagency collaborations. They are 
cuts, pure and simple. That is the wrong message to be sending as we 
try to engage the next generation in STEM pursuits.
    Second, I have to confess I am a bit weary of the annual cycle of 
the Administration proposing reductions in the funding for the Space 
Launch System and Orion exploration vehicles. Both of those vehicles 
are under development and approaching initial testing milestones. This 
is the point in a healthy vehicle development program that funding 
should be increasing, not decreasing. I expect that this is an area 
that Congress will once again have to address.
    Third, I am a bit puzzled by the cuts proposed for NASA's science 
programs. Those programs provide not only exceptional science, but also 
important outreach opportunities and the ability to engage our 
international partners in meaningful collaborations. We are going to 
need to look closely at what is being proposed in this budget.
    Finally, I want to know more about the proposed increases to NASA's 
commercial crew program. Those increases are quite significant, 
especially in the context of NASA's constrained budgetary environment. 
While I certainly want to reduce our dependence on Russia for crew 
transportation to and from the International Space Station, I am not 
prepared to provide a blank check to do so.
    As you know, Rep. Edwards and I expressed deep concern last fall 
over NASA's intention to prioritize price over safety in its evaluation 
of vendor proposals leading to upcoming contract awards for development 
and certification of commercial crew systems. Unfortunately, NASA chose 
not to make any changes in its final solicitation before it went out. 
The agency's action is directly counter to the recommendations of the 
Columbia Accident Investigation Board, and despite Administrator 
Bolden's undisputed personal commitment to safety, I think that is a 
very worrisome step for the agency to take. Moreover, NASA is waiving 
the requirement for certified cost or pricing data as part of that same 
contract-data that has traditionally been required to protect both the 
agency and the taxpayer.
    Administrator Bolden, NASA still has sufficient time to correct 
both of these deficiencies before bidders submit their final updates to 
their proposals later this spring. I urge you to do so, as I would find 
it difficult to support the funding you are requesting for commercial 
crew in the absence of such safeguards.
    Well, we have a lot to discuss today. I again want to welcome you 
to today's hearing, Administrator Bolden, and I yield back the balance 
of my time.
    Chairman Palazzo. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    And at this time I would like to introduce our witness. The 
Honorable Charles F. Bolden, Jr., is the Administrator of the 
National Aeronautics and Space Administration. His 34-year 
career with the Marine Corps included 14 years as a member of 
NASA's Astronaut Office. After joining the Office in 1980, he 
traveled to orbit four times aboard the Space Shuttle between 
1986 and 1994, commanding two of those missions. Prior to 
General Bolden's nomination as NASA Administrator, he was 
employed as the Chief Executive Officer of JackandPanther LLC, 
a small business enterprise providing leadership, military and 
aerospace consulting and motivational speaking.
    As our witness should know, spoken testimony is limited to 
five minutes after which the Members of the Committee will have 
five minutes each to ask questions.
    I now recognize General Bolden for his testimony.

           TESTIMONY OF HON. CHARLES F. BOLDEN, JR.,

           ADMINISTRATOR OF THE NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    General Bolden. Thank you very much, Mr. Chairman.
    Members of the Subcommittee, thank you all for this 
opportunity to discuss NASA's Fiscal Year 2015 budget request. 
A more detailed written summary of the request has already been 
made available to the Subcommittee so my verbal testimony will 
just touch on the highlights.
    The $17.5 billion budget request affirms the bipartisan 
Strategic Exploration Plan agreed to with Congress in 2010 and 
it ensures that the United States will remain the world's 
leader in space exploration and scientific discovery for years 
to come. It is an investment right here on Earth for the 
benefit of the American people and the entire global economy. I 
have a chart I would like to put up, Mr. Chairman, if I may, 
for the rest of my statement, and I will refer to this chart 
off and on as we go.
    [Chart.]
    This budget keeps NASA on the steady path we have been 
following, a steppingstone approach to meet the President's 
challenge of sending humans to Mars in the 2030s, and as you 
always see on a chart, you go from left to right, where we are 
today to where we want to be in the 2030s.
    The International Space Station remains our springboard to 
the exploration of deep space and Mars. We guarantee we will 
have this unique orbiting outpost for at least another decade 
with our commitment to extend it until at least 2024. This 
means an expanded market for private space companies, more 
groundbreaking research and science discovery in microgravity, 
and opportunities to live, work and learn in space over longer 
periods of time. Astronauts aboard the ISS are helping us learn 
how to safely execute extended missions deeper into space. 
Later this year, we will see Exploration Flight Test, or EFT-1, 
of Orion. NASA is pressing forward with development of the 
Space Launch System and Orion, preparing for an uncrewed 
mission of the two together in Fiscal Year 2018.
    The budget also supports the Administration's commitment 
that NASA be a catalyst for the growth of a vibrant American 
commercial space industry. Already, two companies, SpaceX and 
Orbital Sciences, are making regular cargo deliveries to the 
Space Station. Later this year, we will move beyond commercial 
cargo and award contracts to American companies to send 
astronauts to the station from American soil and end our sole 
reliance on Russia. If Congress fully funds our Fiscal Year 
2015 request, I believe we can do this by the end of 2017.
    Unfortunately, due to the reduced funding the past few 
years for the President's Launch from America plan, NASA may 
need to extend our current contract with the Russians and 
purchase more seats on the Soyuz spacecraft. Instead of 
investing $450 million into the U.S. economy to support 
American jobs, we could be spending that money in Russia. 
Budgets are about choices. The choice here is between fully 
funding the request to bring space launches back to American 
soil or continuing to send money, millions, to the Russians. It 
is that simple. The Obama Administration chooses to invest in 
America, and we are hopeful that Congress will do the same.
    In addition to continuing ISS research, strengthening 
partnerships with commercial and international partners, and 
building the next-generation heavy lift rocket and crew capsule 
to take our astronauts farther into space than ever before, our 
steppingstone approach includes a plan to robotically capture a 
small near-Earth asteroid and redirect it safely to a stable 
orbit in the Earth-Moon system where astronauts can visit and 
explore it. Our Asteroid Redirect Mission will help us develop 
technologies including solar electric propulsion needed for 
future deep space missions to Mars. Under our asteroid 
initiative, we enhance detection and characterization of near-
Earth objects and improve understanding of asteroid threats to 
the planet.
    NASA's Fiscal Year 2015 budget request continues support 
for science missions heading toward destinations such as 
Jupiter and Pluto. It enables NASA to continue making critical 
observations of Earth and developing applications to directly 
benefit our Nation and the world. It maintains steady progress 
on the James Webb Space Telescope toward its 2018 launch. Our 
aeronautics program will continue to focus on substantially 
reducing fuel consumption, emission and noise to help make the 
Next Generation Air Transportation System, or NextGen, a 
reality.
    Finally, all of NASA's investments help drive technology 
and innovation, spur economic activity and create jobs. That is 
why the President's Opportunity, Growth, and Security 
Initiative with Congressional approval will provide NASA nearly 
$900 million in additional funding in Fiscal Year 2015 to focus 
on specific areas where we can advance our priorities.
    The Fiscal Year 2015 budget advances NASA's strategic plan 
for the future. We will continue to build U.S. preeminence in 
science and technology, improve life on Earth, and protect our 
home planet while creating good jobs and strengthening the 
American economy.
    Thank you, Mr. Chairman. I will be happy to respond to any 
questions you or other Members of the Subcommittee may have.
    [The prepared statement of General Bolden follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Palazzo. I thank General Bolden for his testimony, 
reminding Members that Committee rules limit questioning to 
five minutes. The Chair will at this point open the round of 
questions. The Chair recognizes himself for five minutes.
    During our budget hearing last year, I asked you about the 
Administration's $60 million reduction to the SLS program in 
its fiscal 2014 budget request. At the time you believed the 
discrepancy was more about how the money was classified than an 
actual reduction. This year, the Administration has an SLS 
vehicle development line very clearly broken out and shows a 
$219 million reduction to vehicle development. At the time the 
omnibus passed, you praised the appropriation for keeping 
NASA's Deep Space Exploration program on track. If the $1.6 
billion for SLS will simply keep it on track, how will a $219 
million cut affect it, and what activities will you plan to 
stop in Fiscal Year 2015 that are funded in Fiscal Year 2014?
    Mr. Bolden. Mr. Chairman, if I can get the chart back up 
one more time, I think that will help me explain my logic and 
why I think the budget as we requested suffices for keeping us 
on track to Mars.
    There are three relevant areas here. We are Earth reliant 
right now, and we want to get away from that. We need a proving 
ground before we can go to Mars. There is so much we don't 
know. We have got to have a place, and preferably somewhere 
within a day or two from Earth, and that happens to be the 
Earth-Moon system, so that is why we selected the Asteroid 
Redirect Mission as our particular steppingstone to go to Mars. 
In low-Earth orbit, we have the International Space Station, 
which is viable and functioning.
    So we feel that we have got to do first things first, and 
the first thing for us is making sure that we have a reliable 
Earth-reliant system. If I don't get commercial crew, that 
Earth-reliant area becomes weakened. I do not want to be 
reliant on the Russians to get my crews to the International 
Space Station. So I don't need a Space Launch System and Orion 
if I can't get my crews to low-Earth orbit. If we continue to 
depend on the Russians, then everything else is in jeopardy. So 
Commercial Crew is the critical need for this Nation right now.
    Chairman Palazzo. Okay. I mean, I might have a quick 
question on Commercial Crew as well. So basically you are 
saying you are reducing the SLS/Orion budget to fund Commercial 
Crew?
    General Bolden. Mr. Chairman, I am not really saying that I 
am reducing the SLS/Orion budget.
    Chairman Palazzo. It is a $219 million cut, so what are we 
going to be putting it on?
    General Bolden. In the time that I have been the NASA 
Administrator, we have invested $12.5 billion into space 
exploration, into SLS, Orion and the ground systems, $12.5 
billion. Over an equivalent time, if we had the Shuttle, we 
would have spent $12 billion. So we have invested more in SLS 
and Orion than we would have spent on the Shuttle if it were 
still around. The President has requested $109 billion since I 
became the NASA Administrator. Fifty-two percent--almost 50 
percent of that, $52 billion, has been requested for human 
exploration. So, I think we are quibbling about hundreds of 
millions of dollars in a multibillion-dollar budget, and since 
I am the CEO of the company trying to get us on this path to 
Mars, I think that all we need to do is continue on the road we 
are. I would invite the Members to go to Michoud. I would 
invite the Members to go to the Kennedy Space Center. They will 
see Orion ready to fly next fall. So we are producing. We are 
not cutting back on anything. We have hardware in production 
right now.
    Chairman Palazzo. I appreciate that answer. It doesn't 
quite, you know, satisfy my question but I will follow up with 
you at a later time to get more information.
    For the past two years, you have graciously come before 
Congress and testified that without receiving full funding for 
Commercial Crew, NASA would not be able to deliver certified 
crew transfer service to the ISS. However, despite receiving 
less than the request both years, NASA continues to claim that 
these services will be available by 2017. It would seem that 
one of three things happened with this program. Either NASA 
consistently requested more money than it needed for the 
program, or NASA won't be able to meet the 2017 launch 
schedule, or there is more flexibility in the acquisition 
strategy than NASA is leading on. How can you say that if you 
don't get full funding for Commercial Crew this year that the 
schedule will slip when this is the exact same thing you said 
in previous years, and yet just this week NASA claimed to be on 
schedule for 2017?
    General Bolden. Mr. Chairman, if the Committee would 
indulge me, I would ask everybody to think back to my first 
hearings when I became the NASA Administrator, and when we 
started talking about Commercial Crew at that time, we were 
requesting a billion dollars. We requested a billion dollars 
over the next six years for a total of $6 billion for 
Commercial Crew. That was based on my estimate and that of the 
Augustine Committee that said one provider would cost about 
$2.5 billion. We multiplied it by two, and I added a billion, 
so that is how I got the $6 billion. We got zero the first 
year. The second year, we got $525 million. At the time we were 
targeting 2015 for the availability of Commercial Crew. We 
would now find ourselves months away from launching Americans 
from American soil, and I wouldn't have to worry about paying 
the Russians another $450 million. Over time when I kept coming 
back to the Committee, I said if we don't get full funding, we 
are going to slip. I came back finally and said we have 
slipped. We now will not have Commercial Crew available until 
2015--2017, and we may not have the competition that I need. 
The Committee implored us to down-select to one. We said please 
don't make us do that; we need competition. So I just want to 
remind everybody of the history of Commercial Crew and how we 
got here today.
    We are now faced with a 2017 availability from 2015, so I 
am not--I have been consistent. I have said we will slip if we 
don't get the funding. We have slipped two years. I am saying 
the same thing again today. If we don't get what the President 
requested, I can't guarantee 2017, I can't guarantee 
competition, and we will continue to pay the Russians. I don't 
like that.
    Chairman Palazzo. So even though in previous years you said 
the same thing but you still contend that we are going to be on 
schedule for 2017?
    General Bolden. Mr. Chairman, I need for everybody to 
understand what I just said. I said 2015 the first time I 
testified before this Committee. I said we can do that if we 
fund the President's budget. I came back at a subsequent point 
and said okay, we are not going to make 2015, we can make 2017, 
given the level of funding we have. We are on track to still 
get to 2017 if we are given the amount of money that the 
President requested in the 2015 budget.
    Chairman Palazzo. Well, General, I think this Committee and 
Congress agrees with you. We don't want to be solely reliant on 
the Russians for human access to space. I mean, we want to 
launch American astronauts from American soil on American 
rockets.
    General Bolden. Mr. Chairman, as I said before, budgets are 
about choices. This Committee, this Congress chose to rely on 
the Russians because they chose not to accept the President's 
recommendation and request for full funding for Commercial 
Crew. You can't have it both ways.
    Chairman Palazzo. Well, we are getting away from that so, I 
mean----
    General Bolden. We are not away from it yet because I don't 
have a----
    Chairman Palazzo. We are not one to continue to rely on the 
Russians but, again, we have serious budget constraints, not 
just dealing with NASA's budget but with all of our 
discretionary spending. We have--we are looking at some serious 
issues, and we know the world is not becoming a safer place; it 
is becoming much more dangerous, and you know, we have to make 
sure that we have a presence in space. If not, those friends 
that aren't so friendly to us will have a presence, and you as 
a General in the Marine Corps knows whoever has the high ground 
pretty much dominates the battle space.
    So with that, my time has expired. I will turn to the 
Ranking Member for her questions.
    Ms. Edwards. Thank you, Mr. Chairman, and I will take 
advantage of that extra two minutes and 48 seconds. Thanks.
    I want to continue this line of questioning, though, 
because I look in your prepared statement, Mr. Administrator, 
you indicate that we can stay on track to launch astronauts to 
the ISS from American soil by the end of 2017 if Congress fully 
funds your 2015 budget request. That budget request is $848.3 
million, and last year you received 696.
    General Bolden. Yes, ma'am.
    Ms. Edwards. So the choice for Congress is that in order 
for you to commit to making that 2017 date, we have to commit 
to the 848.3. Is that correct?
    General Bolden. Yes, ma'am, that is correct.
    Ms. Edwards. And in addition to that, I want to know then 
what your confidence level is if we are at 848.3.
    General Bolden. My confidence level of making 2017 if we 
are at 848.3 is good. It is high for making 2017. My confidence 
level for making 2017 with robust competition is not as high. 
You know, that is the reason that we put $150 million into the 
Opportunity Fund----
    Ms. Edwards. Okay. I want to----
    General Bolden. --because that would get us to a billion 
dollars.
    Ms. Edwards. I want to get back to what informs your 
confidence because there--we had requested, the Committee 
requested an independent cost estimate that wasn't done, and so 
tell me what the basis is for your 2017 confidence level.
    General Bolden. My basis for everything, every statement I 
make before this Committee is my leadership team, and Bill 
Gerstenmaier heads up the Human Exploration and Operations 
Mission Directorate. Until I get half as smart as they are, 
that is going to be my--and we are also talking to industry. We 
are dependent on American industry contributing the major 
portion of what is going into the Commercial Crew program. We 
are able to stay on track so far but I don't know how much 
SpaceX, Boeing, Sierra Nevada has put of their own personal 
funds into Commercial Crew. I know they have put more than we 
have. So the difference to keep us on track has been because 
the companies are expecting that we will fully fund it one of 
these days and they continue to up their investment would be my 
guess.
    Ms. Edwards. So let me just ask, so with the 2014 enacted 
levels of funding for SLS/Orion, and what you requested, 
resulting then you are saying in the slip to 2017----
    General Bolden. No, the 2017 slip came long before that.
    Ms. Edwards. So what--if Congress doesn't fund fully at 
848.3, what development activities will have to be delayed in 
order to accommodate----
    General Bolden. Milestone achievements on the part of the 
Commercial Crew providers, compliance with human ratings 
standards and other requirements because they will be under 
contract. When we award the contract, we have to stretch that 
contract out. That is what always happens. You have less money. 
We have two things we can work with. We can work with cost and 
schedule. If I don't have enough money, the schedule stretches 
out. It always does.
    In Commercial Crew under the Space Act Agreement, I didn't 
have to worry as much about the cost because that was a 
partnership, and so the companies were also putting in money as 
necessary to make sure that they stayed on track with their 
milestones.
    Ms. Edwards. So let me just ask again, and maybe you have 
it, but can you provide to us the independent cost assessment 
that was done that informs your belief and your confidence in 
the 2017 date for Commercial Crew?
    General Bolden. Yes, ma'am. I am told that that will be 
available shortly, so we will get that to the Subcommittee.
    Ms. Edwards. Okay. We are counting on that, Mr. 
Administrator.
    General Bolden. Yes, ma'am.
    Ms. Edwards. And then I want to ask you on Commercial Crew, 
I am concerned about the possibility of a premature selection 
of Commercial Crew transportation service provider and how that 
translates into safety for our astronauts. So the Aerospace 
Safety Advisory Panel, the ASAP, recommended in its annual 
report for 2013 that competition be maintained until safety 
confidence is achieved. So how are you dealing with these 
safety considerations? And if we are going to keep the process 
open for competition, how do you inject safety in there?
    General Bolden. We inject safety by putting the competition 
in and writing contracts that allow us to get into the 
facilities and levy additional regulations if necessary 
requirements. We are confident right now. We just went through 
a contract--we are in the middle of a contract process right 
now. It is called Commercial Crew Capabilities Assessment, and 
it is the contract that over the last year has allowed us to 
work with the companies. We ask them, demonstrate to us how you 
are going to meet our safety standards, demonstrate to us how 
you are going to document meeting those safety standards, show 
us how you are going to handle hazard reports. We are already 
doing that with them, and we have worked with them for years to 
reach agreements on what those standards would be. They can 
meet or exceed NASA standards, and in many cases, that is 
exactly what they are going to do.
    Ms. Edwards. So----
    General Bolden. They will cite their own standard.
    Ms. Edwards. So my time has more than expired, but let me 
just read to you from the ASAP annual report: ``If NASA down-
selects to one provider before the selectee has demonstrated 
that its design can meet the required level of safety, there is 
the ultimate potential that the provider may not be able to 
meet the requirements for a number of reasons including cost. 
In such a situation, NASA will have little alternative because 
it has already down-selected''--those are my words--``but to 
either move the safety goalpost or to incur an overrun and/or a 
schedule slip. If competition is maintained, NASA may have 
alternatives other than accepting a less safe design, 
unnecessary higher cost or a late delivery.'' I only share that 
with the Committee and you because it is very clear that if we 
move toward, one, depending on what our budget numbers are, 
then the likelihood that we are not paying the kind of 
attention in Commercial Crew to safety actually goes up, not 
down.
    General Bolden. No, ma'am. The likelihood that we are going 
to pay less attention to safety is zero. Safety is something 
that I do, that Bill Gerstenmaier does, that the Commercial 
Crew Program Manager does, and that is, our attention to safety 
is independent of cost. We may become even more vigilant, which 
means the schedule is really going to stretch out because we 
are going to require additional tests. That is what happens 
when you don't have competition. The vendor begins to think 
that okay, you are relying on me, you have got to have it at 
this date and you have to take what we want. That is not the 
case. We are not going to do that.
    Ms. Edwards. I apologize but I am now at exactly two 
minutes and 50 seconds.
    Chairman Palazzo. I now recognize the gentleman from Texas, 
Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Administrator Bolden, I think we are all regretful that we 
are relying upon the Russians to take American astronauts to 
the International Space Station. Given the turmoil in the 
Ukraine, given our current relationship with Russia, which is 
obviously not good, are you aware of any threat that Russia 
might refuse to take American astronauts to the International 
Space Station for any reason?
    General Bolden. I am not aware of any threat, and I am 
comfortable because we talk to the Russians every day. We talk 
to Roscosmos. There are a lot of people in Russia. Our partner 
is not Russia; our partner is Roscosmos, the Russian space 
agency, and we are confident that they are just as interested 
and just as intent on maintaining that partnership as we are.
    Chairman Smith. Hopefully the problems on Earth are not 
going to be----
    General Bolden. This is not the first time that we have had 
this type of problem. When the Russians went into Georgia, the 
partnership remained robust, and we--that is what we are trying 
to do right now.
    Chairman Smith. Okay. Thank you.
    Let me go to my next question, and this is about ARM. Last 
May, NASA Advisory Council Chairman Dr. Steve Squyres testified 
``I see no obvious connection between the Asteroid Retrieval 
Mission and any of the technologies or capabilities that are 
required for Martian exploration.''
    I understand that NASA is undertaking a study on the 
possibility of a Mars flyby in 2021. Is that the case?
    General Bolden. That is not the case as far as I know. We 
have been working with Inspiration Mars, which is I think what 
you are talking about. We agreed that we would allow them to 
take NASA technology. They can use NASA facilities. We will 
partner with----
    Chairman Smith. Perhaps I misunderstood you because I 
thought you specifically told me in response to a letter that I 
sent you that you would review that.
    General Bolden. Oh, I thought you asked if we were doing a 
study. We are not doing a study.
    Chairman Smith. Okay. It looks like you reviewed the 2018. 
Are you reviewing the 2021?
    General Bolden. We are reviewing any efforts that NASA 
might make in supporting Inspiration Mars.
    Chairman Smith. So you are not making any official 
evaluation of it?
    General Bolden. We continue to make evaluation of it as 
they come back. This started out as a partnership where they 
needed nothing from NASA except do not talk bad about----
    Chairman Smith. Maybe I misunderstood your letter to me. I 
thought you were undertaking a review, but you are not.
    General Bolden. We are not undertaking a formal review 
where we go out and hire an independent firm, if that is what 
you mean.
    Chairman Smith. That is not what I was asking. I was asking 
about an internal review.
    General Bolden. We are constantly reviewing whether or not 
Inspiration Mars and the Mars flyby is a suitable alternative 
for us in getting to Mars, putting humans on Mars.
    Chairman Smith. I just quoted the Chairman of the NASA 
Advisory Council as saying that there was no obvious connection 
between----
    General Bolden. I think if you talk to Steve Squyres today, 
because of where we are, the maturity of the----
    Chairman Smith. I don't doubt you could put political 
pressure on him but----
    General Bolden. I don't put any pressure on him. No, that 
is why he is the Chairman of----
    Chairman Smith. He testified before this Committee. He was 
very clear.
    General Bolden. I don't----
    Chairman Smith. And what I just said was a direct quote.
    General Bolden. Mr. Chairman, just to be clear, I put no 
pressure--I can't put pressure on Steve Squyres. He chairs 
the----
    Chairman Smith. Well, then, as far as I am concerned, his 
testimony before the Committee stands and the quote that I just 
gave you is still valid, unless you have got other information.
    General Bolden. I have other information, which is talking 
to Steve Squyres weekly, and Steve Squyres counseled me, don't 
make this seem like you are going to save the planet; show us, 
the NASA Advisory Committee, how this is relevant to getting 
people to Mars. We have subsequently done that, and if you can 
put the chart back up again, you know, I am not going to dwell 
on the chart but we----
    Chairman Smith. The last I heard, he said there is no 
connection, so I am going to take him at his word until I hear 
from him.
    Let me go to a different subject, and this is in regard to 
the James Webb Telescope and the test program as well, a 
happier subject. We expect James Webb to launch in 2018. I 
think tests may be 2017. What information might we glean from 
those two telescopes that will help us in our understanding of 
astrobiology?
    General Bolden. James Webb actually will enable us to look 
into the atmosphere of some of, if not all of, the exoplanets 
that have been discovered through Keppler and other 
observatories. So James Webb will continue to revolutionize our 
understanding of our universe. Hubble has rewritten textbooks. 
James Webb is advertised to be 100 times more potent and more 
powerful.
    Chairman Smith. Specifically, what might we learn about 
astrobiology as a result of those?
    General Bolden. We might learn what the makeup of exoplanet 
number whatever it is, what its atmosphere is.
    Chairman Palazzo. And then--okay. Good.
    General Bolden. That will tell us whether or not there is a 
possibility of life existing on an exoplanet.
    Chairman Smith. Right. That is my hope as well. Thank you, 
Administrator.
    Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentlewoman from 
Texas, Mrs. Johnson--my apologies. Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Chairman Palazzo. Of Oregon, by the way.
    Ms. Bonamici. Thank you.
    Ambassador Bolden, welcome back, and thanks, as always, for 
your informative testimony. We really appreciate that.
    I want to start by mentioning, as you did, the importance 
of investing in the Earth Science programs at NASA. I want to 
acknowledge the economic impact of that research, especially in 
the district I am proud to represent. I can't overstate the 
importance of accurate climate and weather forecasting to my 
constituencies from agriculture, the fishing community, so 
continued investment in that underlying science that helps us 
understand climate is important and significant. I know that 
last year NASA inherited from NOAA some climate sensors that 
were formerly a part of the NOAA-funded JPSS program but NASA 
only received funding for Fiscal Year 2014 for that activity, 
so has that been remedied going forward?
    General Bolden. We think it is in the process of being 
remedied, and in fact, if I remember correctly, we plan to take 
the two climate sensors, and they will actually become a part 
of the International Space Station. We had the option of making 
them free flyers, which would have been relatively expensive, 
the Earth Science community working with the Human Exploration 
and Mission Operations Directorate and are trying to enhance 
the utilization of station. We are beginning--as you may know, 
we are beginning to put more and more Earth Science missions on 
the International Space Station. That is where we intend to put 
them.
    Ms. Bonamici. Terrific. Thank you.
    And then I wanted to follow up on the comments that were 
made by a couple of my colleagues already about the concern 
about investing in the Education mission. As someone who 
discusses that issue frequently both in this Committee and the 
Education Committee, STEM education is a priority of course of 
many of my colleagues on both sides of the aisle, of our 
constituency. What I want to talk about today is the NASA Space 
Grant program. Recently I met with representatives from the 
Oregon NASA Space Grant Consortium, and our conversation 
largely focused on the importance of keeping students engaged 
in STEM, and I will tell you, there are a couple of examples 
that show how important this is. One of them is that students 
from McMinnville High School in my district on April 6th coming 
right up are doing a nano lab launch, and the difference that 
this is making to these students in McMinnville High School, 
they are thrilled that they have two separate nano labs going 
up to the ISS. They are so excited. And when we are talking 
about building people who want to work in this field, looking 
at someone also from Oregon, Victor Dang, who is now a full-
time structures engineer for SpaceX, had an internship at the 
Johnson Space Center, said it was an amazing opportunity, he 
couldn't have done without the Space Grant program, interned 
also at Ames Research Center where he said the opportunity had 
an incredible impact on his career. It was his first industry 
experience but it solidified his desire to pursue a career in 
aerospace. He said, ``It was one of the most fun summers I ever 
had. It inspired me to seek opportunities that would allow him 
to travel to new places.''
    So as we are trying to build not only people to work in the 
field but also make sure that the public understands the 
benefits of space exploration, can you talk a bit about how 
this Space Grant program is engaged in getting students into 
STEM fields but also talk about the role in educating the 
public at large about NASA's educational work, and know that 
many of us are very concerned about the reductions in 
education.
    General Bolden. Very briefly, for the benefit of those who 
may not understand Space Grant or know very much about it, 
every state in the Nation has a Space Grant consortium and it 
is usually headquartered in the land-grant institution of that 
state. So it is a dependable source of STEM reference and 
education for NASA. We have asked them over the past few years 
to extend their work actually down into the K-12 level where 
they were very uncomfortable at first, but they now as a result 
of working with us on the Summer of Innovation, for example, 
which is probably where the young man in school has learned 
about STEM education, we now have the Space Grant consortium, 
and many states, they are the responsible entity for making 
sure that Summer of Innovation is conducted in their states 
over a period of time. So it is a very good program.
    Ms. Bonamici. And do you expect that that program is going 
to be cut? Because there are these sharp reductions in the 
educational activities.
    General Bolden. One of the things that I never have to 
worry about is reductions in Space Grant. Space Grant and MUREP 
and other programs are those that we ask for what we think will 
be required to maintain them, and you all always help, so I am 
not worried about funding for Space Grant.
    Ms. Bonamici. Well, thank you. I am almost out of time. I 
yield back. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentleman from 
Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    I must admit that I am somewhat astonished by your 
testimony that shifts responsibility from this Administration 
to Congress for American's current inability to launch 
astronauts into space. Let us be clear for a moment. This 
Administration made the unilateral 2010 decision to cancel 
NASA's human spaceflight Constellation program, thereby 
delaying America's return to human spaceflight. This 
Administration made the decision to mothball our Space Shuttles 
and put them in museums rather than keeping them available 
should circumstances or emergencies dictate their use. This 
Administration has grown America's welfare, wealth transfer 
programs to over $750 billion per year, more than 40 times 
NASA's budget, welfare programs that put a higher priority on 
buying election votes no matter the loss of funding for NASA, 
national defense or other productive functions of the federal 
government.
    Now I hear testimony that this Administration wants to 
invest in America, quote, unquote, when the Space Launch 
System, NASA's next human spaceflight program, was forced on 
this Administration by Alabama Senator Richard Shelby and other 
Senators and Congressmen who believe in Americans' 
exceptionalism in space.
    With that as a backdrop, as you know, Russia has engaged in 
acts of war against the Ukraine in the Crimea. America's 
response has been rather anemic economic sanctions, sanctions 
designed to provide maximum domestic political cover without 
any hope of causing Russia to leave the Crimea. Recent 
intelligence information raises the concern that Russia may go 
beyond the Crimea and attack eastern Ukraine. All of this 
raises the specter that this Administration will impose more 
economic sanctions which in turn risk that Russia will respond 
by denying America access to the International Space Station, 
and they can do that because we are reliant on Russia to get to 
the International Space Station. In the time remaining, Mr. 
Administrator, please describe to this Committee what NASA's 
plan is to put American astronauts on the International Space 
Station should Russia say they are no longer going to give us a 
ride to the Space Station?
    General Bolden. Mr. Chairman, may I get the chart again? 
Because--and Congressman Brooks, I am not going to engage in a 
debate about history. It is a fact that the decision to phase 
out the Shuttle was not made by the Obama Administration. That 
decision was made following the recommendation of the Columbia 
Accident Investigation Board in 2004 under the Bush 
Administration.
    Mr. Brooks. Excuse me, if I might interject, when the space 
Shuttle was mothballed, President Obama was President of the 
United States.
    General Bolden. That is right.
    Mr. Brooks. He could have made any decision he wanted to 
make--wait a minute. Let me finish. He could have made the 
decision to have continued to use the Space Shuttle or he could 
have made the decision to keep it available in the event of 
emergencies. He chose not to.
    General Bolden. Congressman Brooks, I will just make one 
statement. I was the one who recommended to the President that 
we phase the Shuttle out. I would have recommended we phase it 
out quicker. I just mentioned we were spending $12 billion over 
the same period of time that we have spent $12.5 billion on SLS 
and Orion----
    Mr. Brooks. Okay. Let me interject again.
    General Bolden. Congressman----
    Mr. Brooks. No, wait a second. You said you were not going 
to go over history. You were able to divert from my question to 
history. My question was, if Russia cuts us off today because 
of the events in the Ukraine or elsewhere in the world, what is 
NASA's plan to get us to that Space Station?
    General Bolden. Congressman, we engage in contingency 
planning every single day, contingency planning for Russia 
refusing to take us to the International Space Station is not 
a--it is something that I consider to be feasible right now 
because Russia is dependent upon the United States to operate 
the International Space Station when it comes to power, when it 
comes to everyday operations. That is all done by the United 
States. Russia has one thing that we need: access. If the 
International Space Station----
    Mr. Brooks. Okay. Back to my question.
    General Bolden. Listen----
    Mr. Brooks. Is it your testimony that America has no plan 
because you don't think it is a possibility to worry about?
    General Bolden. This is like asteroids. We have a plan. The 
plan needs to be funded. The plan is Commercial Crew. If the 
Congress chooses not to fund Commercial Crew, we--this Nation 
has no plan.
    Mr. Brooks. Okay. I have looked at your written statement, 
and it says and consistent with your oral statement that 
basically we are looking at the end of 2017, which is three and 
a half years away. Is that the plan if Russia decides to 
terminate our access to the International Space Station?
    General Bolden. Congressman Brooks, I am confident that 
based on my conversation with my Russian counterparts that they 
are equally worried about terminating activity on the 
International Space Station, so I am not going to deal in 
suppositions. I don't expect that our partners will abandon the 
International Space Station, which would----
    Mr. Brooks. Okay. Mr. Chairman, I see my time is expiring. 
I appreciate the witness's insight. But if all I am hearing is 
that our only plan is three and a half years away, I have to 
worry about what happens if Russia does cut us off as our 
relationship with Russia continues to deteriorate based on 
Russian acts of war in the Ukraine and Crimea.
    Thank you, Mr. Chairman, for indulging me.
    Chairman Palazzo. I now recognize the gentleman from 
California, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Ranking 
Member Edwards.
    You know, let us not dwell on the past. Let us actually 
look to the future and think about where we want to go, because 
that is what we do. We are informed by the past but we also 
plan for the future.
    General Bolden, just playing off of what my colleague 
talked about, it is my impression that we also have leverage 
with regard to the International Space Station.
    General Bolden. Exactly.
    Mr. Bera. So in a partnership, we have got that leverage, 
they have got some leverage. But the end goal, if we are 
looking toward the future, is commercial space travel and 
moving folks forward. When I do look at the building blocks, 
and our conversations previously, we do really have a long-term 
goal to have human space travel to Mars, and you are laying out 
some steps here and so forth.
    I had a chance to visit the SpaceX plant down in southern 
California recently, and it does look like they are also fairly 
quickly advancing. Obviously they have been able to take 
supplies up to the Space Station and they are now also 
advancing fairly quickly on commercial space travel with 
humans. Can you give us an update about the partnership between 
NASA and the commercial space entities and so forth?
    General Bolden. I think we should all be proud that during 
the period of time that I have been the NASA Administrator in 
the Obama Administration, we have stood up a commercial cargo 
capability. So we are not dependent on any international 
partners anymore for getting cargo to space. We are diligently 
working with some of those same partners plus others to bring 
about a capability in the United States to have a Commercial 
Crew capability. NASA does not deal in low-Earth orbit access 
anymore, nor should we, because we have to use that money in 
order to execute a deep space exploration program.
    Mr. Bera. Great. Can you expand on the Asteroid Retrieval 
Mission as a building block and a step into going to deep space 
as well as returning from deep space?
    General Bolden. There are things that we need if we want to 
go to Mars, and I hope that all of us in this room, 
particularly those on the Committee, will agree with me that 
NASA's, America's, the world's ultimate goal in our lifetime is 
to put--to see humans on Mars. If I can get the chart back up 
because it would really be helpful? In order to get to Mars, 
there are things we don't have. We don't have sufficient 
propulsion to take cargo there because you don't want to have 
to utilize your crew vehicle to take cargo. It would take 
multiple SLS missions to get the amount of cargo to Mars to 
sustain a human inhabitation there. We need increased 
capability in something like solar electric propulsion. We need 
to be able to test it. And so our proving ground is the Earth-
Moon system, the cislunar orbit where we intend to take the 
asteroid so that we can interact with it, we can fly Orion 
there, we can do things, we can develop procedures for 
extravehicular activity, we can develop procedures for 
proximity operations, things that we cannot do in low-Earth 
orbit because that system is different than what we know in 
low-Earth orbit. So I need a proving ground. The Moon is two 
days away. If something goes wrong there, we can come home. 
Once we launch to Mars in the 2030s, the crew is eight months 
away. So imagine Apollo 13. The crew survived because it was a 
loop around the Moon and nature took care of it, to be quite 
honest. An Apollo 13-like incident, the side of the service 
module blows out right after liftoff, we are going eight months 
to Mars and then another eight months to come back or more. So 
we have got to get it right, and our proving ground is cislunar 
orbit with the asteroid mission where we can develop the life 
support systems that are robust. We can't have a cooling system 
that fails. We can't have the kinds of things that happen 
sometimes in the International Space Station. That is why 
Station is used to develop the technologies. They have got to 
be better, got to be more robust.
    Mr. Bera. And again, if we stick with this theme of wanting 
to be forward-looking, wanting to dream, which is what we did 
as kids, right, when we looked at the Apollo missions and 
putting a person on the Moon, we dreamt big and then we went 
out and did it. That is what we have to do right now.
    With this goal of human space travel to Mars, it is going 
to--we don't know how we are going to get there just yet but we 
have got to think about those technologies and we have got to 
start making those investments. Would that be accurate?
    General Bolden. That is very accurate. It is now time for 
us, and I have asked our people to start thinking about okay, 
we are approaching 2030. SLS and Orion have been proven. We are 
getting ready to go to Mars. What should we be thinking about 
now? You got to get to the surface. We haven't even started 
talking about landers. We have not even started talking about 
surface systems. That is where the international partners and 
commercial partners, I think, are going to be vital.
    Put the chart up one more time, because I need for people 
to visualize this. This is hard. If you look at Earth reliant, 
we cannot get to deep space, we can't sustain operations in 
deep space if we have to come back to Earth every time to pick 
up stuff. Congressman Rohrabacher knows this. We go through 
this all the time. We need things like cryogenic propellant and 
storage. I don't need it right now. So he and I disagree on 
what the timing is. We are in the just-in-time business. The 
reason I don't spend the money that you would like to have me 
spend on SLS is because I don't need a 130-metric-ton vehicle 
right now. I do need a commercial vehicle that I can send my 
astronauts to low-Earth orbit. Now, we--hopefully everyone 
agrees we are going to Mars. If we do, hopefully everyone 
agrees that we have got to crawl, walk, run, and this is a 
crawl, walk, run. We have got to have proven technology.
    Chairman Palazzo. The gentleman's time is expired.
    Mr. Bera. Great. Thank you.
    Chairman Palazzo. I now recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Well, perhaps a crawl, walk, orbit would 
be----
    General Bolden. That is good.
    Mr. Rohrabacher. How did you know what I was going to ask?
    General Bolden. I was hoping you would because I need for 
people to be consistent in what they ask, and you have been 
consistent.
    Mr. Rohrabacher. Boy, I didn't expect all these great 
compliments.
    General Bolden. I try to speak the truth.
    Mr. Rohrabacher. Thank you, General. Well, let us get to 
the first ride. Two issues I wanted to talk to you about. One 
was what you brought up, refueling in space, and let me just 
note for the record, not all of us do believe that getting to--
putting people, you know, on Mars should be our number one goal 
in space right now.
    General Bolden. Yeah.
    Mr. Rohrabacher. It is expensive, and making that our 
number one goal reflects taking away resources from other 
projects that might be more important to humankind than just 
what is a symbolic mission of putting a human being on Mars, 
considering that we have robots and rovers and all sorts of 
other things that are on Mars already.
    But let us go to that. When we are talking about the option 
of refueling in space, would that not give us a great deal of 
leverage to accomplish other missions in space, perhaps on the 
Moon, perhaps other goals that we would like to achieve at a 
much more cost-effective rate because we wouldn't have to build 
such a huge rocket that SLS is going to cost tens of billions 
of dollars?
    General Bolden. We don't know that it would be much more 
cost-effective because to get the type of depot in space--and 
we have talked about this before. The number of flights 
required to get the type of depot in space that we need is 
extensive, and so while an Atlas V or a Falcon 9 may cost 
significantly less than an SLS, by the time you fly 10, 12 
Atlas Vs or Falcon 9s, you have exceeded the cost of an SLS. So 
for getting humans into deep space, for getting large payloads, 
large scientific payloads into deep space, you want something 
like an SLS so we don't have to do these Venus flybys to 
Jupiter. We want to be able to go direct. SLS will give us that 
capability in time. We are not ready yet. We don't need that 
capability yet, so we have to do as you said, we need to 
cislunar orbit to develop the technologies, low-Earth orbit to 
develop the technologies, and we are trying to do that. We are 
using ground tests right now for cryogenic propellant and 
storage. We are not going away from it.
    Mr. Rohrabacher. I am watching that closely, and let me 
just say that I think that that presents us a much more cost-
effective way of achieving specific goals rather than heading 
for a goal that would be so expensive that it would drain other 
potential uses in space, projects in space.
    Now, let me ask you this. Are you confident that if an 
object from space that was discovered or there is an object in 
space that threatens to cause massive damage on our planet, are 
you confident that that object will be detected and that we can 
deflect it?
    General Bolden. I am highly confident that that object can 
be detected. In fact, if there is an object that is larger than 
a kilometer that threatens Earth, we probably already have 
identified it and it is in the 97 percent or 98 percent of 
those objects that have already been identified. We know when 
it is going to be but nothing in the next 100 years in that 
category. If it is less than 140 meters, I am less confident 
that we have--in fact, I know we have not identified it yet but 
we are developing the capability to do that. Deflection, 
nothing.
    And Congressman Posey is probably going to ask me the same 
thing as he did in the asteroid. We are trying. The Asteroid 
Redirect Mission will inform our--it won't--I don't want to 
fool people. We are not going to save the planet with the 
Asteroid Redirect Mission. It will inform our capability to 
answer your question and his question from the asteroid hearing 
which is, does the United States have the capability of 
protecting the planet if we can identify something fast enough. 
In the future, in the near future, when we fly the Asteroid 
Redirect Mission, that will inform our ability for me or 
whoever is sitting in this chair then to say I am very 
confident that we can deflect anything that is inbound to 
Earth. It will inform us. It won't give us the capability.
    Mr. Rohrabacher. I don't want to quibble with the word. 
``Can'' and ``will'' are two different things.
    General Bolden. Okay.
    Mr. Rohrabacher. With that, we will deflect an object that 
could destroy and murder, you know, millions of people.
    Let me ask----
    General Bolden. We will have that capability, I am 
confident.
    Mr. Rohrabacher. Okay. One last quickly here. Is there an 
established procedure and chain of command to take the actions 
that would be necessary if we do spot this maybe three percent 
chance that there is a huge object heading toward us? Is there 
a chain of command and the necessary procedures to actually 
make the decisions and take over and get the job done?
    General Bolden. There are procedures in place. There is a 
definite change of command, or a chain of command. In fact, I 
am going to be traveling to Langley Research Center next week. 
That is my devolution facility. Every year we practice a 
continuity of operations nationwide or government-wide, so I 
will be moving with my chief of staff and the Associate 
Administrator to Langley because something bad is happening to 
Washington. FEMA becomes a critical player in the role. The 
National Command Authority springs into action. The President 
is the guy that makes all the big decisions and the National 
Security Council, and NASA is a teeny weeny little player in 
there. We provide data as we continue to do.
    Mr. Rohrabacher. If a near-Earth object was coming----
    General Bolden. If a near-Earth object were coming, that 
would become an impending national disaster like a hurricane or 
other kinds of things, and there are distinct procedures in 
place to what FEMA would do with the Nation to get prepared. 
Something like a near-Earth object, we don't presently have the 
capability like a hurricane to give you a percentage 
probability that is going to strike New York or, I mean, you 
know, it is going to strike Earth. That is what we can tell 
you. And so--but we would have to prepare.
    Mr. Rohrabacher. Thank you, General.
    Chairman Palazzo. I now recognize the gentleman from Texas, 
Mr. Veasey.
    Mr. Veasey. General Bolden, good morning, and I wanted to 
touch on Russia again very quickly.
    Most recently, one of the official sanctions because of the 
Ukraine crisis is Dmitry Rogozin, Deputy Premier of Defense and 
Space Industry. You have stated that if we provide NASA with 
the President's request for Commercial Crew we will have launch 
capability in 2017. So my question to you is, how can we 
accelerate our efforts to assure launch capability returns back 
to America?
    General Bolden. The way to accelerate it in this case is 
more money, to be quite honest. I can't tell you when a company 
is going to think they are ready to fly but all of our partners 
that have given us schedules--Sierra Nevada, for example, has a 
scheduled launch on an Atlas V, a demonstration flight for 
themselves, I want to say it is 2015 or 2016. So the companies 
are moving very rapidly, as rapidly as they can, based on the 
funding that we have given them to be able to be ready to fly 
as soon as they can. I would be hesitant to say we could 
accelerate it any more than a year. But we could potentially 
accelerate it by a year if we were given adequate funding.
    Mr. Veasey. And----
    General Bolden. I can't say that about everything. I can 
say that companies are poised.
    Mr. Veasey. Right, right, and speaking of funding, what are 
the impacts of reducing NASA's education programs?
    General Bolden. NASA spends $17.6 billion on STEM 
education. I don't think people really get it. I spend a lot of 
time in classrooms. I spend a lot of time doing Skype. I spend 
a lot of time doing VIC with schools because I can't go to 
every school. I don't make a trip anywhere, particularly 
outside the United States, that I don't do an outreach event 
and try to help our partner nations with their STEM education 
programs because everybody faces the same thing we do.
    Everyone is concerned about the reductions that they see in 
the Office of Education but it is making us hungry to find new 
ways to collaborate with other agencies. We did a program with 
the Department of Education. It is their 21st Century 
Communities and Learning program. NASA essentially did the 
program for them because we could bring astronauts into the 
classroom via downlink TV from the International Space Station. 
We were paid $300,000 to kind of put it together. They invested 
$5 million. That probably would have cost the Nation $10 
million last year but we are learning how to collaborate with 
each other. We are not--I know everybody is worried about 
losing money. We are finding that synergy among Federal 
agencies is working for us. The 4-H is in every single county 
in this Nation, every single county. NASA has the Space Grant 
Consortium in 50 states. Compare every single county to 50 
states. We are now talking about working with collaboratively 
4-H. That is going to magnify greatly the number of kids that 
we are able to reach with STEM education enrichment. So I am 
not worried about our ability to do our job. STEM outreach, it 
is us. I mean, we do that every day.
    Mr. Veasey. In your opinion, is there any way to evaluate, 
you know, like whether or not these----
    General Bolden. Oh, yeah.
    Mr. Veasey. --that would make cuts to the programs? Are 
there real ways to evaluate whether or not these cuts are 
having an impact on future achievement or, you know, we talk a 
lot in this Committee about being to inspire young people to, 
you know, want to reach certain goals as it relates to STEM-
related jobs.
    General Bolden. Without a doubt. NASA's education program 
this year for the first time is outcome based, which means you 
have got to have metrics, so we are looking at, now we are not 
allowed because of privacy, we can't map a child from 
elementary school through college. The Department of Education 
can. The National Science Foundation can because they are 
authorized to do those kinds of things. So by our collaborating 
with DOE, with Department of Education, and the National 
Science Foundation, they can do the metrics that tell us okay, 
how many kids that participated in Summer of Innovation last 
summer ten years from now are doctors or lawyers or things like 
that. Those are the metrics about which you speak, and although 
I can't do it, I can get it now based on the collaborations 
that we have, and it has taken time.
    Everybody wants to see something now. We just started 
Summer of Innovation. We had to battle to get it. I think it 
has been around now four years, and we are seeing--we are now 
seeing factual data, not anecdotal data. We are looking at 
numbers of kids.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentleman from 
Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    General, I had a chance to thank Seth and I had a chance to 
thank Bob Cabana for their commonsense no-cost outreach that 
NASA did to reach thousands of people who were indifferent 
pretty much previously to space and now seem to be enthusiastic 
about it, and I just haven't had a chance to thank you 
personally for that, and I think it is great. That is how we 
help spread the message.
    General Bolden. Thank you.
    Mr. Posey. A couple of things. You know, as to funding, I 
don't think any of us are where we would like to be with 
funding but I think we are in a whole lot better place than we 
were a year ago with the uncertainty about sequestration and so 
I am trying to look at a glass half full in that regard pretty 
much as you are.
    We need a deep space plan, Moon to Mars. There is no doubt 
about that. And we also need low-Earth-orbit options. So I know 
it is tight balancing that, and in space politics, you are 
always going to have some that want it all one way and some 
that want the other way, and I hope that we will continue to 
understand that we do need both and go forward like that.
    A concern that I have, and I discussed it briefly with Dr. 
Holdren yesterday, and he referred to a recent agreement that 
NASA has with Department of Energy over our space fuel supply. 
I wonder if you could bring up to date on that a little bit.
    General Bolden. Yes, sir. We have reached an agreement with 
DOE. They produce the plutonium pellets that we need, and so we 
are still in negotiations right now trying to understand how do 
we help them improve their facilities, I mean, just the 
infrastructure that is needed to press the pellets for 
propulsion. We have enough right now in our stockpile to be 
able to fly the missions that are presently on the books for 
us--Mars 2020 and the like--but we have to work better with DOE 
to make sure that they can make the improvements to their 
infrastructure so that they can efficiently make the pellets 
that we need. We have lots of fuel but it is old and it needs 
new fuel to mix in it to make it good.
    Mr. Posey. They are not in the process of destroying any or 
getting rid of any that you are aware of or using it for 
anything else other than space?
    General Bolden. I will have to take that for the record. I 
don't know the answer to that, sir.
    Mr. Posey. Would you just find out? I would kind of like 
that assurance that it is not being used elsewhere for other 
things or----
    General Bolden. Yeah, I will, and I will take that for the 
record. I don't know.
    Mr. Posey. Okay. Thank you, General. Any other comments you 
would like to make about keeping on track with both?
    General Bolden. Oh, it is a balance, and I come to this 
hearing, I feel better about where we are than ever before, to 
be quite honest. I wanted to commend the Chairman and Ranking 
Member because of the way they are working together. We must do 
better than we are doing. I don't want to sit here and say what 
was the responsibility of the Bush Administration, what 
happened in the Obama Administration. As Congressman Bera said, 
what is done is done. We can't undo that. We can make a 
difference for the future. The thing I will say is, what I am 
talking about, none of us are going to be sitting around here 
in charge. I had some young people, MLLP, they had to leave--
Mid-Level Leadership Program. They are young, growing leaders 
in NASA, and they just wanted to see how we do this stuff. That 
is who is going to do all this stuff we are talking about. Deep 
space exploration is hard, and we cannot jump to Mars. We have 
to develop the technologies. We have got to be confident that 
our systems are going to work. That is why when Chairman Smith 
asked about a Mars flyby, a Mars flyby is great but it doesn't 
do anything for us in terms of deep space exploration. If the 
crew survives, and I have doubts about that--that is why I am 
not a fan of a one-time Mars flyby. I mean, okay, we have done 
a one-time Mars flyby. As great as Apollo was, and it was 
awesome, we never stayed on the surface of the Moon for more 
than days. If we are going to go to the surface of the Moon, we 
better stay there for a month or two months or we are not going 
to learn anything about the impact of less than one gravity on 
the brain or on other----
    Mr. Posey. But do we agree unless at some point there is 
the ability to leave this Earth, the survival of our species is 
threatened?
    General Bolden. I am not a fatalist, but we do need to be 
able to be a multi-planet species.
    Mr. Posey. A realist. We are trying to look at eternity. We 
are trying to look at the future.
    General Bolden. I mean, one of these days our Sun--you and 
I won't see it, nobody we know will see it, but one of these 
days our Sun is going to burn out, it is a start, and it would 
be nice if we have become a multi-planet species by then and we 
are not just on Mars. By then people will be living in other 
solar systems because the solar system will go away. We got to 
get beyond--like my granddaughter says, she says, you are 
thinking about Mars, I am going way beyond that, and she is 
right. When the Sun gives out, this solar system goes away.
    Mr. Posey. We have to think about planting trees for future 
generations.
    General Bolden. Yes, exactly.
    Mr. Posey. The shade from which we will never expect to 
have, and I like Neil deGrasse Tyson when he says space is 
truly the only investment we make for future generations.
    General Bolden. Yes, sir. I agree.
    Chairman Palazzo. The gentleman's time is expired.
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentleman from 
Arizona, Mr. Schweikert.
    Mr. Schweikert. Thank you, Mr. Chairman and General.
    Part of what I want to sort of have a quick dialogue is, 
just the mechanics internally under your review, how you set 
priorities and the decision making and the inputs and those 
things because I know you have a lot of voices and a lot of 
people tugging on your coat saying we want this, we want that. 
Something like SOFIA because--now, that was really coming 
online just within the last 12 months or so, correct?
    General Bolden. SOFIA is a--I mean, it has been under 
development for probably 10 years.
    Mr. Schweikert. But in full----
    General Bolden. It was beginning to fly and fly well.
    Mr. Schweikert. And so internally, when you are doing your 
prioritizations and mechanics, tell me the review process you 
go, and let us just use SOFIA just because I am somewhat 
familiar with that on how you prioritize a program like that, 
that you have a decade of time and money.
    General Bolden. Inside the Science Mission Directorate, 
they have--I forget what they call their council, but every 
year they get the wise people of the science community and they 
evaluate our programs to see, okay, what I have asked them to 
do for me right now is, we have a lot of programs that have 
been flying for a long time, long past their planned lifetime. 
They are expensive. We have to pay for those. So when we 
prioritize what we are going to get from our science portfolio, 
we try to make sure we have a balance of Earth, space, 
everything, and SOFIA ended up in the prioritization--SOFIA was 
down here. When you talk about James Webb getting ready to come 
online, Spitzer, other sources of data that is very similar to 
what SOFIA gives us, SOFIA is a unique asset.
    Mr. Schweikert. And I don't want to put words in your mouth 
because I am----
    General Bolden. You won't.
    Mr. Schweikert. --reaching back, because I remember it may 
have been a year or so ago, you were actually somewhat a fan of 
SOFIA.
    General Bolden. I am a fan of SOFIA. I am a fan of anything 
that has wings.
    Mr. Schweikert. So mechanically, share with me the internal 
process under your authority tree on how they would prioritize 
SOFIA and how it ended up where it is.
    General Bolden. We would go to the science community and 
ask how--based on what we expect to get in our budget, what do 
you want to continue to operate, and the one thing I keep 
cautioning is, if we are going to put new systems online, if we 
are going to bring about new technology, better sensors than we 
have today, what are you going to give up? Because the science 
community----
    Mr. Schweikert. But does that become more of a conversation 
of let us enhance what we have or is it to cancel or--I mean--
--
    General Bolden. Well, you never say what are we going to 
cancel. That is not a question. So the question is, how do we 
operate within our budget and provide science responsive to the 
scientific objectives set by the Decadal Surveys, set by the 
outside advisory committee, set by Congress.
    Mr. Schweikert. So right now you sort of understand your 
budget request and where you see things going. Tell me where 
SOFIA sits in that.
    General Bolden. Low.
    Mr. Schweikert. So it is a low priority?
    General Bolden. It is not a low priority. I shouldn't have 
said that. In comparison with other projects in the science 
portfolio, SOFIA did not rise to the level that we decided we 
were either going to terminate another program or--we have 
options with SOFIA, and as Dr. Holdren mentioned I think 
yesterday, we do have options with SOFIA. We don't know what 
the 2015 budget is going to be so we could end up with enough 
money that we could--we have not stopped flying SOFIA. 
Everybody is panicking. We are working with our German partners 
to find ways that we can enhance the utilization of SOFIA for 
the rest of this fiscal year. We may not put it into upgrade, 
for example.
    Mr. Schweikert. But when you are doing your layers of 
priorities, Opportunity, Growth and Security Initiative and 
those, I am just--I am trying to get a better understanding how 
something like this falls in the big picture.
    General Bolden. If you look at our list of things in the 
Opportunity, Growth and Security Initiative, almost every one 
of them is something that is either in existence right now, and 
I am trying to buy down risk, $150 million to Commercial Crew 
if the Congress grants our request for $848 million takes it to 
a billion. That is buying down risk.
    Mr. Schweikert. Okay. And just because my time--I had two 
quick--do you think the Germans would be willing to take on 
more of the heavy lift on the cost of----
    General Bolden. That is one of the alternatives. However, 
to be very candid, they don't seem to be willing to do that.
    Mr. Schweikert. If we put their flag first on the airplane?
    General Bolden. We are looking at all alternatives for 
SOFIA. I will have to say, though, SOFIA is a joint project. 
The United States, NASA is unable to assume all responsibility 
for SOFIA.
    Mr. Schweikert. My second--and this is just because it 
outside my skill set--Space Station.
    General Bolden. Yes?
    Mr. Schweikert. How long can it go unmanned, you know, if 
it sat there for--I mean, is there sort of a--when you cross 
over a maintenance curve? I am just--I am sort of curious if 
there is a data point.
    General Bolden. You don't want to--I don't--I will have to 
take that for the record. If you really want me to tell you how 
long we can go if we de-man, de-orbit----
    Mr. Schweikert. No, no. Let us say it sat up there for 36 
months.
    General Bolden. It can't sit up there for 36 months 
unoccupied. We have got to have people that are repairing--it 
was an ammonia pump that went out. That was an emergency. That 
was a contingency for which we had to do a contingency 
spacewalk and all that. If there is no crew, that doesn't get 
done.
    Mr. Schweikert. So in many ways, for maintenance and just 
sort of--you almost----
    General Bolden. You talk about leverage. Everybody is 
excited because the Russians have the leverage on 
transportation. When you talk about navigation, communications, 
power, the United States has significant leverage on the 
International Space Station.
    Mr. Schweikert. Mr. Chairman, I am so sorry. I just looked 
at the clock, and I was having fun here. Thank you for your 
patience.
    General Bolden. You asked great questions.
    Chairman Palazzo. All great questions. I now recognize the 
gentleman from New York, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman, and there is nothing 
wrong, Congressman, with having some fun.
    Mr. Schweikert. Well, around here it is.
    Mr. Collins. Yeah. Okay.
    General Bolden, my question really surrounds the chart you 
have already showed and the human exploration roadmap that is 
both the authorization bills in the Senate and the House as 
well as the minority's version that we need to help assess us 
in the merits of the Asteroid Retrieval Mission. So the chart 
you have been, you know, showing a little bit today doesn't 
outline what you want to call the specific set of capabilities 
and technologies required to extend human presence to the 
surface of Mars or the mission sets necessary to demonstrate 
the proficiencies of these capabilities that the House version 
asked for. It doesn't include the information on the phasing of 
planned intermediate destinations, Mars, mission risk areas and 
the potential risk mitigation approaches that required by the 
bill offered by Ms. Edwards, and it does not include a 
description of the utility of an expanded human presence in 
cislunar space toward enabling missions to various lunar 
orbits, the lunar surfaces, asteroids, the Mars system and 
other destinations of interest.
    So until the Administration provides the detailed 
information on the Asteroid Retrieval Mission including how it 
fits into a broader exploration architecture, I assume Congress 
is going to continue to view some of this project skeptically, 
which brings me to the question: NASA's budget request includes 
$180 million for the Asteroid Redirect Mission, so last year at 
the budget hearing, I wasn't here but I have been informed that 
you told the Committee that a mission formulation review would 
be done over the summer, but now it has been a year since the 
mission was announced. NASA has not completed the mission 
formulation review, and what I was told is, just last week you 
released a broad agency announcement for information and held 
an open forum yesterday to solicit even more input. So when is 
NASA going to actually have a plan for the mission that the 
Committee can review and how can you be sure that the mission 
is in fact a steppingstone to Mars, as the BAA claims, without 
a human exploration roadmap?
    General Bolden. My estimate would be that over the next 
year we will continue to refine the concept for the Asteroid 
Redirect Mission. There are two big potential ways that we 
could do it right now, and that is what we are evaluating. That 
is the reason we continue to go to the community, industry, 
academia and entrepreneurs, to be quite honest, trying to 
determine whether we want to use a small asteroid--smaller--
small is a relative term, where we grasp the asteroid and fly 
along with it and thrust against it or whether we go to a large 
asteroid, take a large boulder from it so that has to be 
determined, and that will determine the specifics of the 
mission, what type vehicle you use and everything.
    We know that no matter what we do, we are going to need 
solar electric propulsion so we have identified that as, if you 
will, a hurdle to being able to do an Asteroid Redirect 
Mission, also a hurdle to getting to Mars because we know that 
is what we are going to use for cargo.
    Mr. Collins. Well, you know, in the tough budget 
environment we are in, clearly I would say the more information 
that you can provide to Congress, the more likely you can get 
buy-in, and if things start to slip or commitments are made and 
not met, I think you can understand that is viewed 
problematically, and again, what I was told was yesterday when 
NASA presented to the scientific community, it was the opinion 
of some that the information that was presented was a broader 
set of data and information than has already been shared with 
this Committee or with Congress. So, you know, in priority 
setting, I guess I would just simply encourage NASA to give us 
more data than we ask for so that, you know, we are not feeling 
as though we are left out of the loop or that we are not 
important because you can understand the result if that is the 
feeling, which I think it is somewhat.
    General Bolden. I appreciate and intend to respond to that 
request, and I would hope--I look at the staff in the back. I 
am told that we have been regularly briefing the staff on the 
progress with the Asteroid Redirect Mission, so if that is not 
true, somebody shake their head no, that is not true, and I 
will go back and----
    Mr. Collins. I think the staff should be shaking their head 
no because clearly, as someone new to the Committee, very 
directly asked me to probe this because they don't feel like it 
has been so, so there is a----
    General Bolden. Have they not been getting any information 
or not being getting sufficient information?
    Mr. Collins. Well, not sufficient. If you are not getting 
sufficient information, you might as well not----
    General Bolden. Robert Lightfoot, who is my Associate 
Administrator, usually does--he leads the team up here. If it 
is insufficient information, it is because we don't know. If it 
is no information, it is because I am being misled in thinking 
that they are coming----
    Mr. Collins. Well, I don't think anyone would suggest it is 
no information but to some extent insufficient information 
means decisions can't be made.
    General Bolden. It means we don't have enough information 
to make an informed decision. That is all it means.
    Mr. Collins. Again, I would just encourage you, and I don't 
think it is saying anything to--the more information you can 
get this Committee, the more likely you will see the 
Committee----
    General Bolden. Exactly, and I understand that, and again, 
I will go back to my comments earlier. There are big things 
happening. I would encourage people, part of getting ready for 
the Asteroid Redirect Mission is having a vehicle to take the 
crew. If you go to the Kennedy Space Center, you will see 
Orion. It is a spacecraft. It is not a drawing. It will fly 
next fall, this coming--before the end of the year. If you go 
to Michoud, you will see components of SLS that are under 
construction, whether they are barrel assemblies for the fuel 
tank or whether they are domes or whatever, that is real 
hardware. We are not talking about drawings anymore, and that 
is all a part of getting to the Asteroid Redirect Mission. So 
that may not be sufficient but that is all we have is hardware. 
If that is not sufficient, I don't know how to do better.
    Mr. Collins. Thank you, General Bolden. My time is expired. 
Sorry, Mr. Chairman.
    Chairman Palazzo. That is fine. Great questions by all the 
Members of the Committee.
    At this time, General, you are not going to get off without 
a second round of questions.
    General Bolden. That is good.
    Chairman Palazzo. So I will open it up for myself, and this 
is similar to a follow-up on Commercial Crew.
    Last year, the Associate Administrator, Bill Gerstenmaier, 
said basically 90 percent of all the development costs for the 
Commercial Crew is being paid for by the American taxpayer, and 
we know that the Commercial Crew contract is going to be 
similar to what the cargo was, anywhere from $7 to $11 billion 
or greater. So we are just thinking--you mentioned that if we 
don't--if you don't get the funding, that the schedule will 
slip beyond 2017. Is there anything that NASA can actually do 
to entice these companies to actually put more skin into the 
game, perhaps? Yes or no.
    General Bolden. I am confused by a number you just gave. 
Our total expenditure, unless my charts are wrong, the total 
expenditure on COTS over the five years that I have been the 
NASA administrator from the taxpayer was, we were appropriated 
$782 million and we obligated $780 million.
    Chairman Palazzo. Yeah, I am not talking about Commercial 
Crew.
    General Bolden. Commercial Crew----
    Chairman Palazzo. I am talking about the value of the 
contracts that, you know, these companies are going to receive 
from $7 to $11 million, estimated value for flying, you know, 
cargo and crew. So I am saying, you know, we are basically 
paying 90 percent of the development cost. Is there a way to 
get them to maybe put more money into the program?
    General Bolden. They do. That is the reason--that is why I 
mentioned earlier, when you said how have we managed to stay on 
cost, on target, on schedule, if you haven't given us what we 
asked for, it is because the companies have paid more than they 
would have normally paid. That is the only way they can produce 
hardware. We only paid them what we had. So--and I would have 
to go back--I will take for the record to verify the 90 percent 
number. I would be surprised if we are paying 90 percent of the 
cost of Commercial Crew development to this date. I would be 
really surprised.
    Chairman Palazzo. I mean, that is from a hearing we had 
September 14, 2012.
    General Bolden. And I am told the information is 
proprietary, but I will go back and--I will take that for the 
record.
    Chairman Palazzo. Okay. At this time I recognize the 
Ranking Member.
    Ms. Edwards. Thanks. Just very quickly, I do want to follow 
this up because earlier when you mentioned--I thought you had 
misspoken that the industry participants of the Commercial Crew 
program were providing more money than NASA. That doesn't seem 
to be the information that we have. So is it possible for you 
to provide the Committee with the amounts that each of the--
even at some level, the amounts that each of the industry 
participants is putting in and NASA so that we can see that? 
Because otherwise I think all of us are under the impression 
that NASA, that the taxpayers are actually providing the bulk 
of the support for Commercial Crew. Is that wrong?
    General Bolden. As I said, I will take that for the record.
    Ms. Edwards. Okay. Thank you. And then you also--I mean, 
you can hear that--don't think we have coordinated our 
questions for you but what you can hear is a concern around the 
Asteroid Retrieval Mission, and so I wonder if you would be 
prepared by a date certain to provide the Committee with a 
roadmap and the analysis of the various options that there 
would be testing different kinds of technology for this plan to 
Mars, and so some of us, for example, have thought, well, maybe 
the Moon makes sense as a sort of test bed, others, the ISS, 
and others, the Asteroid Retrieval Mission, or maybe some 
combination, but when would you be able to provide a roadmap 
with the analysis comparing these options and the technologies 
that would be derived to the Committee?
    General Bolden. Congresswoman, I will go back. It was my 
impression, because I keep referring to it every time I come 
forward, we have two matrices. One shows human ratings, human 
performance, human concerns. The other one shows technology 
gaps. And we have had that--I look at that--I have been looking 
at it for a couple of years. I thought we made that available 
to the Committee-which shows these are things that we are 
accomplishing on the International Space Station, these are 
things that we will accomplish with the Asteroid Redirect 
Mission. But I will take that for the record and go back and 
make sure we have shared those matrices with your staffs and 
with you.
    Ms. Edwards. And then what about lunar--so here is what we 
are wrestling with here. We have some different ideas on this 
Committee about what makes sense, but if you all aren't 
providing us with a real roadmap that outlines the technologies 
and then maybe says here is our scientific analysis about why 
this doesn't make sense or the other, it would help us to make 
a more informed decision from a budget perspective and from an 
authorizing perspective of what it is that we need to look at, 
and I think that the questions that you have heard on the 
Committee go to that point. I mean, it would help the Chairman 
and I very much to have that in hand, and it would help for you 
to say here is a date certain by which NASA can give that to 
us. I want to incorporate that date, quite frankly, if we are 
to do an authorization because then we can come back and 
evaluate what makes sense going forward and that deeply impacts 
budget. And don't leave the Moon out because you can hear the 
concern here on the Committee.
    General Bolden. We won't leave the Moon out but----
    Ms. Edwards. I am not saying that is where I am personally 
but it is a concern of the Committee.
    General Bolden. Well, but I am just saying that we--you 
know, I can state with certainty the reason the Moon, we don't 
talk about it, is because there is no technological advantage 
to go to the Moon. There is no challenge technologically to go 
to the lunar surface.
    Ms. Edwards. Well----
    General Bolden. Except money.
    Ms. Edwards. Okay. So in providing something to this 
Committee, it would be very helpful to have that analysis, to 
have the scientific, you know, sort of basis for that decision 
and also to have the buy-in collectively from the community 
about a direction. Because I think if we had that, we would 
make some very important decisions about in what direction we 
need to go.
    General Bolden. We will attempt to do that. I have to 
caution, hoping that the community, whichever community you are 
talking about, if you are talking about the science community, 
hopefully buy-in is not all will agree. That will never happen.
    Ms. Edwards. Okay.
    General Bolden. There is the lunar community, and they are 
not in favor of anything--now we are talking about ideologues, 
so there is a community----
    Ms. Edwards. Just give us an analysis, and then let us know 
who is for and against, an analysis that will help us in our 
decision-making so that what you want and what NASA needs is 
for this Committee all to be on the same page about the 
direction. That will help you as well as it will help us. Thank 
you.
    General Bolden. I will take that.
    Chairman Palazzo. I now recognize the gentleman from 
Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Administrator, back to the issue with Russia and our 
ability to get to the International Space Station. What would 
be the consequences to the operational capabilities of the 
Space Station if within the next year Russia chooses to deny us 
access by no longer allowing us to hitch a ride on their 
rockets?
    General Bolden. As I mentioned before, because we provide 
navigation, communications, power, and as I responded to 
somebody else, Station would probably--and I hate to deal in 
conjecture--the partners would probably have to shut the Space 
Station down.
    Mr. Brooks. And if the Space Station----
    General Bolden. If you are thinking that the Russians will 
continue to operate the International Space Station, it can't 
be done.
    Mr. Brooks. And if the Space Station is shut down for an 
extended period of time, say----
    General Bolden. I will not need--I will come to this--I 
will go to the President and recommend that we terminate SLS 
and Orion because without the International Space Station, I 
have no vehicle to do the medical tests, the technology 
development, and we are fooling everybody that we can go to 
deep space if the International Space Station is not there. 
That is the reason that we and Roscosmos and ESA and JAXA, 
everyone agree that hey, no matter what else is going on the 
surface of Earth, if we want to do this global exploration 
roadmap to which 12 different nations signed up, we have to 
have the International Space Station. That is the reason that 
the President said okay, I will agree to extend it to 2024 and 
we are going--I mean, you know, I don't want anyone to think 
that I need an SLS or Orion if I don't have the International 
Space Station.
    Mr. Brooks. Let me make sure I understand the sequence of 
events of your testimony.
    General Bolden. Very plainly----
    Mr. Brooks. Let me make sure I understand the sequence of 
events from your testimony, and you correct me if I err. If the 
Russians deny us access to the International Space Station, it 
is your testimony that because of what services we provide to 
the International Space Station, you would have to shut it 
down, and if the International Space Station is shut down, you 
in turn would then see no reason to have the Space Launch 
System or Orion? So is it fair for me to infer that you would 
then recommend that those programs be shut down too?
    General Bolden. And I need to correct what I said, if I 
said it. I don't know that the Russians denying us access--you 
are assuming that they come today and say okay, you are not 
going anymore and we are not going to bring your crew home so 
figure out how to get them home. I don't think that any of 
those contingencies are going to happen.
    Mr. Brooks. Well, I understand that there are probabilities 
that are involved.
    General Bolden. But that supposition was given to me, and I 
don't accept that as a viable supposition.
    Mr. Brooks. I am one of those that believes in planning for 
all contingencies. It is much like the effort to acquire an 
asteroid.
    General Bolden. We didn't plan on----
    Mr. Brooks. I don't think that the odds of an asteroid 
hitting us in the next few years are very big, but nonetheless, 
to me, that is an interesting mission because of the risk 
associated with one eventually hitting Earth and our having the 
capability of being able to thwart that. Granted, the Russians 
may not, over the next couple of years, shut us off from access 
to the International Space Station and all they have to do is 
deny us the ride that we keep thumbing with them, which if they 
are willing to attack other nations, it doesn't seem beyond the 
realm of possibility that they also might be willing to deny 
American astronauts rides to the International Space Station.
    But having said that, if the International Space Station is 
shut down for any extended period of time, can it be 
resuscitated?
    General Bolden. I will take that for the record. You know, 
anything can be done. You are asking for suppositions, 
Congressman Brooks, and----
    Mr. Brooks. No, I am asking for your expertise and insight 
on that subject.
    General Bolden. I am not an expert on the environmental 
control and life support system of the International Space 
Station. So I said I will take that for the record----
    Mr. Brooks. All right. Thank you.
    General Bolden. I mean, there is no either/or in terms of 
SLS and Orion and Commercial Crew, and I don't know how many 
ways to say that.
    Mr. Brooks. Right.
    General Bolden. I know there are a lot of you who----
    Mr. Brooks. Thank you. You have answered my question.
    General Bolden. Bear with me. You asked me----
    Mr. Brooks. If the Chairman would give me another minute in 
order to ask one other question?
    General Bolden. This is the last thing I will say: if I 
don't have Commercial Crew and I can't get to low-Earth orbit, 
I don't need SLS and Orion. I showed you the exploration 
roadmap. If I can't get to low-Earth orbit, there is no 
exploration program.
    Mr. Brooks. All right. If I could go to my final question 
then. There was a study done entitled ``Human and Nature 
Dynamics: Modeling Inequality and Use of Resources on the 
Collapse and Sustainability of Societies,'' and it concluded in 
part that income inequality contributes to the collapse of 
societies. It has come to my attention that the study also 
states, ``This work was partially funded through NASA/GSFC 
Grant NNX12AD03A'' and that NASA contributed $26,000 to a study 
on income inequality or that involved income inequality. Why is 
NASA spending money that should be related to space 
exploration, at least in my view, on income inequality issues?
    General Bolden. NASA did not request such study. We did not 
endorse such study. We have not reviewed such study. The study 
was done at the University of Maryland as an offshoot of a 
study we did request on another subject. We don't control what 
a principal investigator chooses to do if they can get 
additional studies.
    Mr. Brooks. But it is your money. It is $26,000 of NASA 
funding. Are you telling me that NASA doesn't control what its 
money is being spent on?
    General Bolden. An investigator performs the study that we 
request, and if they choose to amplify the study with 
additional information or additional data for their own use, we 
don't prohibit them from doing that.
    Mr. Brooks. Thank you for sharing that information.
    General Bolden. It is not a NASA study, neither endorsed 
nor requested by us.
    Mr. Brooks. But paid for by NASA in part.
    Chairman Palazzo. Time is expired.
    At this time I want to ask unanimous consent to enter into 
the record a letter--oh, I am so sorry. At this time I 
recognize the gentlewoman from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman, and thank you, 
Administrator Bolden, for staying for a second round of 
questions.
    I wanted to follow up on the international partnerships and 
international cooperation, which we have talked about a lot in 
this Subcommittee, and we all appreciate the importance of it, 
and we have had some discussions about that this morning, but 
what I wanted to talk about is in light of the proposal to shut 
down SOFIA, what are the risks of the international partners 
coming to view NASA as an unreliable partner, for example? What 
has been the response of the international community when they 
found out about the SOFIA proposal?
    General Bolden. The only members of the international 
community concerned about SOFIA so far have been the Germans, 
because that is our principal partner there, and before we 
announced the budget, Dr. Jan Verner and I had a long telephone 
conversation, and that is where we decided that we would set up 
a co-chaired working group to look at options for SOFIA, and 
that is what I referred to earlier. A final decision on SOFIA 
has not been made because we don't know what the 2015 budget is 
going to say. But as Congressman Brooks says, we are planning 
for the contingency that we don't get additional money in the 
science budget for SOFIA, and that would mean that we would 
then have to phase out of the--put it in mothballs.
    Ms. Bonamici. Well, and to follow up on that, even though 
Germany may be directly the only partner that has expressed 
concern, what kind of message does that send to the rest of the 
international community, and have you heard any response from 
others about questioning why this might happen?
    General Bolden. A good example would be ExoMars, which 
everyone was up in arms when we announced that we were having 
to step back from the initial agreements on ExoMars. When NASA 
entered into an agreement with the European Space Agency on 
ExoMars, times were better. We were going to provide launch 
vehicles for the 2016 mission, the 2018 mission. When the 2013 
budget was about to come out, I talked to the European partners 
and I said look--we had teams in Paris. This was leading into 
Christmas. I said this doesn't make sense. We have teams 
working on all this stuff, and I don't know what the 2013 
budget is going to be. I cannot in good conscience allow the 
teams to keep working towards something that we may not be able 
to support. I said give us time, let us look at the budget and 
then we will determine what happens. When the 2013 budget came 
out, we found out we couldn't provide the launch vehicles that 
we had earlier promised. They went and negotiated and Russia as 
a partner in ExoMars agreed that they would do that. We agreed 
that we could hold up our end of the bargain on a 
communications package for 2016, and a very important 
scientific package on 2018. So the partners understood where we 
were. They go through the same thing. It is just that when they 
back out of something or they don't make a payment, it doesn't 
make the front page of the New York Times the way it does when 
the United States does it.
    Ms. Bonamici. Thank you, and I asked you earlier about 
Earth science. I want to ask you a question about planetary 
science. Can you talk a little bit about the continued cuts 
being proposed for NASA's Planetary Science program and whether 
that is consistent in light of the work that NASA plans to 
undertake on a Mars 2020 rover? How can the cuts to the 
Planetary Science program be consistent?
    General Bolden. We are holding to a Planetary Science 
portfolio that we have brought to this Committee and others for 
a long time. Mars 2020 is still on track. We have to find ways, 
innovative ways to do missions when budgets are reduced, and 
our budget has been constantly reduced over time. As I said, 
the President requested a certain amount since I have been the 
NASA Administrator, and the amount appropriated has always been 
less than that was requested, and that is forgotten by most 
people. We have taken the resulting appropriations and we have 
figured out alternative ways to do things. Sometimes you 
descope a mission, sometimes you have to cancel it, but we have 
really canceled very few missions in the time that I have been 
the NASA Administrator because we have been able to find 
alternatives to how to do it.
    Ms. Bonamici. Thank you. And even though that may be 
forgotten by most people, I doubt that it is forgotten by 
people on this Subcommittee.
    So thank you very much, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Palazzo. The gentlewoman yields back.
    At this time I ask unanimous consent to enter into the 
record a letter from the Planetary Society that has been shared 
with the minority ahead of time. Hearing no objection.
    [The information appears in Appendix II]
    Chairman Palazzo. I
    General Bolden. Mr. Chairman, may I get a copy of the 
letter, or can you remind me or refresh my memory of what it 
is? Because I get all kinds of stuff----
    Chairman Palazzo. You don't get the right to see it.
    General Bolden. I don't get to see it? Okay.
    Chairman Palazzo. We will get you a copy of the letter, of 
course, and the attachment.
    So at this time----
    General Bolden. Is it good or bad? Can you give me a hint?
    Chairman Palazzo. Both.
    General Bolden. Both?
    Chairman Palazzo. Yeah.
    General Bolden. They want more money for Mars, and do they 
like Europa?
    Chairman Palazzo. General Bolden, thank you. Thank you for 
your valuable testimony and the Members for their questions. 
The Members of the Committee may have additional questions for 
you, and we will ask you to respond to those in writing. The 
record will remain open for two weeks for additional comments 
and written questions from Members.
    The witness is excused, and this hearing is adjourned.
    
    [Whereupon, at 10:57 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by The Hon. Charles F. Bolden, Jr.

[GRAPHIC] [TIFF OMITTED] 
                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC] [TIFF OMITTED] 

   Additional responses submitted by The Hon. Charles F. Bolden, Jr.
   
[GRAPHIC] [TIFF OMITTED] 
                                 [all]
</pre></body></html>
